<html>
<title> - THE TRANSITION IN AFGHANISTAN</title>
<body><pre>[Senate Hearing 113-421]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 113-421

                     THE TRANSITION IN AFGHANISTAN

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           DECEMBER 10, 2013

                               __________

       Printed for the use of the Committee on Foreign Relations




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






      Available via the World Wide Web: http://www.gpo.gov/fdsys/





                         U.S. GOVERNMENT PRINTING OFFICE 

90-799 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001





















                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                              (ii)        




















                            C O N T E N T S

                              ----------                              
                                                                   Page

Corker, Hon, Bob, U.S. Senator from Tennessee, opening statement.     2
Dobbins, Ambassador James, Special Representative for Afghanistan 
  and Pakistan, U.S. Department of State, Washington, DC.........     3
    Prepared statement...........................................     5
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    41
    Letter and GAO Report Submitted to Supplement Answers to 
      Questions No. 4 and No. 5..................................    46
Menendez, Hon. Robert, U.S. Senator from New Jersey, opening 
  statement......................................................     1
Sampler, Donald L., Jr., Acting Assistant to the Administrator, 
  Office of Afghanistan and Pakistan Affairs, U.S. Agency for 
  International Development, Washington, DC......................     9
    Prepared statement...........................................    11
    Responses to questions submitted for the record by Senator 
      Robert Menendez............................................    50
    Graphs Submitted to Supplement Answer to Question No. 5......    60

                                 (iii)


 
                     THE TRANSITION IN AFGHANISTAN

                              ----------                              


                       TUESDAY, DECEMBER 10, 2013

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:33 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Robert 
Menendez (chairman of the committee) presiding.
    Present: Senators Menendez, Shaheen, Kaine, Markey, Corker, 
Rubio, Johnson, Flake, and McCain.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    The Chairman. This hearing of the Senate Foreign Relations 
Committee will come to order.
    We thank our witnesses, Ambassador Dobbins and Acting 
Assistant Administrator Donald Sampler, for being here.
    In July, this committee met to assess the transition in 
Afghanistan. At the time, Mr. Ambassador, you had been on the 
job only 2 months. And, in looking over the transcript from 
that hearing, I was struck by how the issues remain virtually 
the same, 5 months later. I will look forward to hearing what 
both of you believe we should expect in the coming months, as 
well as your perspective on some broader issues I have with 
respect to the State Department and USAID's planning for a 
post-2014 presence.
    Clearly, this is a critical time in the transition process. 
President Karzai has, in my view, unwisely decided to gamble 
with the lives of millions of his citizens with a delay in 
signing the Bilateral Security Agreement, testing our patience 
and threatening the progress made by so many Afghans, in 
partnership with the international community, since 2001. And I 
believe this brinksmanship is unwarranted and, frankly, 
insulting to the sacrifices made by the United States military 
and taxpayers, and it is not in Afghanistan's best interests.
    But, I do not think anyone should take my word for it. Ask 
the thousands of Afghans who participated in the Loya Jirga 
last month and overwhelmingly called for Afghanistan to sign 
the BSA. Ask leaders in the region who have called upon 
Afghanistan to sign. Ask Afghan civil society leaders, who, 
without a smooth and stable transition, stand to lose ground 
gained over the past decade. And ask the women of Afghanistan, 
who stand to lose the most if Afghanistan falls victim to the 
kind of violence we saw in the 1990s.
    Any further delay will have real implications on the 
ground. First, every day that passes makes it more difficult to 
plan militarily. Second, the longer the delay, the more players 
in Afghanistan and across the region will hedge their bets, 
leading good people to leave Afghanistan and taking needed 
capital with them.
    Simply put, at some point the United States has to ask if 
we should let our long-term interests and our substantial 
investments in Afghanistan be determined by a lame-duck 
President.
    If we are not able to finalize the Bilateral Security 
Agreement, the results are clear: all United States troops 
would have to leave the country, support in Congress for 
appropriations for the Afghan military and development efforts 
will diminish, and we will not be able to support the Afghan 
military in any significant way, or be able to provide 
development assistance at the same levels.
    Afghans seem to understand this. It is unfortunate that 
President Karzai does not, though, I note with interest a 
recent article that says that President Karzai agreed on a 
cooperation pact with Iran on Sunday, while continuing to 
resist signing a long-term security agreement with the United 
States. It is pretty amazing to me. He has enough time and 
effort to strike an agreement with Iran, but not with the 
country that has shed blood and national treasure to bring it 
to the point in which it is today.
    Let me reiterate, finally, that the United States has no 
intention in interfering in the election process. The choice of 
President and provincial officials will rest with the Afghan 
people. But, the future of international assistance will depend 
upon the integrity of the process. We have seen some progress 
with respect to the election preparations, but I am still 
concerned about the security situation. We know that hundreds 
of polling places will not be able to open. Many are in areas 
too dangerous for domestic and international observation.
    I am also deeply concerned about the disenfranchisement of 
women, especially in rural areas, where it has been difficult 
to recruit Afghan women to serve in security roles at polling 
stations.
    It is also clear that President Karzai's behavior makes it 
difficult to plan our diplomatic and development efforts. I 
look forward to our witnesses providing the committee with a 
better understanding of the administration's planning for the 
State Department and USAID's footprint, post-2014.
    Having laid out those broad parameters, let me thank you 
both for being here. I look forward to our discussion.
    And, with that, let me recognize the distinguished ranking 
member, Senator Corker, for his opening statement.

             OPENING STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman.
    I want to thank the witnesses for being here. I do not know 
the outcome of today's meeting exactly, in light of what is 
happening in Afghanistan, but I would like to make three brief 
points, and certainly look forward to hearing your testimony.
    I think that you know where we are today in this bilateral 
agreement, we certainly have a President of a country that is 
really not speaking for its citizens. And I think everyone 
understands that. And all of us have had encounters with Karzai 
and understand the irrationality that comes with most dealings 
with him. So, I think, as I talk to troops in Tennessee, that 
are getting ready to be there in February, and they are sort of 
asking, ``Why would we go to a country that has a President who 
is dealing with us this way? Why would we do that?'' And, of 
course, my explanation is, again, ``He is not speaking for 
Afghanistan, and we have got to look to the longer view and the 
Afghan people, and not to one individual that is somehow trying 
to find his place in history.''
    Secondly, I would love to hear--I know that, when 
Ambassador Dobbins was in a most recent classified setting, we 
thought we were maybe a couple of days away from something 
happening, and I know that everyone shared that view, and that 
is not where we are--but, I would love to hear your assessment 
as to how this uncertainty is affecting things inside the 
country, economically, how it is affecting business decisions, 
how it is affecting the ingress and egress of citizens there, 
and how it is going to affect the political circumstances 
between now and the proposed election in April.
    And then, lastly, I know that a number of us who were at 
the Munich Security Conference last year--it was almost 11 
months ago--our NATO allies were wanting to know, How are they 
going to provision troops? How many folks? There are some 
things that I know the administration can and should be 
communicating to our NATO allies. And I do not know if you want 
to--especially Ambassador Dobbins--shed any light on the 
conversations that are occurring, relative to if we get this 
bilateral agreement in place, you know, how those 
communications are going, and are we still going to be in a 
position to be appropriately ready when that time comes.
    So, with that, Mr. Chairman, I look forward to our 
witnesses, and thank them for being here.
    The Chairman. Thank you, Senator Corker.
    Let us turn to Ambassador Dobbins, who is the Special 
Representative for Afghanistan and Pakistan for the Department 
of State, and Mr. Sampler, who is the Acting Assistant to the 
Administrator for the Office of Afghanistan and Pakistan 
Affairs for USAID.
    Your full statements will be included in the record. I 
would urge you to summarize your statements in about 5 minutes 
or so, so we can have a dialogue with you.
    And, Ambassador Dobbins, the floor is yours.

 STATEMENT OF AMBASSADOR JAMES DOBBINS, SPECIAL REPRESENTATIVE 
    FOR AFGHANISTAN AND PAKISTAN, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Ambassador Dobbins. Thank you, Mr. Chairman, Ranking Member 
Corker, Senator Kaine.
    My longer statement does cover a range of issues, but I do 
want to concentrate on the one that both of you have raised, 
which is the fate of the BSA and the consequences for our and 
the international community's relations with Afghanistan.
    As you noted, the Loya Jirga, which was assembled by 
President Karzai, had 2,500 Afghan leaders from across the 
country, it strongly endorsed this agreement, and it urged 
President Karzai to conclude it by the end of the year. One 
member of the Loya Jirga actually told me that, of the 2,500 
people, only 25 spoke out against the agreement, which would be 
a pretty startling majority.
    The United States certainly agrees with the Afghan people. 
Concluding the BSA will send an important signal to the people 
of Afghanistan, to the Taliban, to our allies and partners, and 
to the region. For the Afghan people, it will reduce anxiety 
and uncertainty about the future. A signed BSA will tell the 
Taliban, who may think that the end of 2014 means the end of 
international support, that their only path to peace is ending 
violence, breaking ties with al-Qaeda, and accepting the Afghan 
Constitution. A signed BSA will ensure the region that the 
United States will remain engaged, as will its allies, and that 
we are not going to abandon Afghanistan, as we did once before, 
to our regret, in 1989.
    To our NATO allies and other international partners, a BSA 
will open the door to concluding a NATO agreement of comparable 
status of forces and allow them to begin planning for their 
2015 presence.
    For all these reasons, the administration is committed to 
expeditious signature of this agreement. Delaying signature is 
in no one's interest, as both of you have stressed. Delay would 
add another element of uncertainty as the Afghans prepare for 
their elections. For the United States and our NATO allies, it 
would mean the lack of clarity about our own presence in 2015. 
That, in turn, would jeopardize the fulfillment of pledges of 
assistance that NATO and other countries have made in Chicago 
and Tokyo.
    As Ambassador Rice made clear during her recent visit to 
Kabul, although it is not our preference, without a prompt 
signature of this agreement, we will have no choice but to 
initiate planning for a 2014--post-2014 future in which there 
would be no United States or NATO troops in Afghanistan.
    Let me make clear, however, that plans are not decisions, 
and assure you that we are not about to decide to abandon all 
that we and the Afghan people have achieved over the last 12 
years. Based on the results of the Loya Jirga, expressions of 
public opinion throughout the country, and discussions 
throughout my own visit to Kabul last week, I do not believe 
that there can be any serious doubt that the Afghan people want 
the United States and NATO forces to stay, and recognize that 
the Bilateral Security Agreement is a necessary prerequisite.
    The BSA is also the keystone of a much wider international 
commitment involving over 70 countries ready to provide 
economic and security assistance to Afghanistan beyond 2015. 
Afghanistan's regional neighbors, with the exception of Iran, 
also understand the importance of the BSA. I understand that 
President Putin of Russia, President Xi of China, Prime 
Minister Singh of India, and Prime Minister Sharif of Pakistan 
have also personally urged President Karzai to conclude this 
agreement. Now, as you know, several of these leaders are no 
fans of an American military presence in Central Asia, but they 
all seem to recognize that, without continued international 
military and economic support, Afghanistan risks falling back 
into civil war, with the attendant rise in extremist groups, 
outflow of refugees, and disruptions in commerce that would 
threaten the region as a whole. Given this coincidence of 
Afghan public and regional governmental opinion, I see little 
chance that the BSA will not be eventually concluded.
    Awaiting the arrival of the next Afghan President to do so, 
however, will impose large and unnecessary costs on the Afghan 
people. Already, the anxiety caused by President Karzai's 
refusal to heed the advice of the Loya Jirga is having such an 
effect. While in Kabul last week, I learned, from the World 
Bank and other sources, that the Afghan currency is slipping in 
value, inflation is increasing, capital fleeing, property 
values dropping. Probably for the first time since 2001, the 
outflow of Afghan population exceeds the return of refugees. 
The longer this uncertainty about the future international 
commitment to Afghanistan continues, the more anxiety will 
increase, potentially dominating the upcoming Presidential 
elections, threatening to turn these into a polarizing, rather 
than a unifying, experience in the country.
    Prolonged uncertainty over the BSA will also erode larger 
international support for Afghanistan. At Tokyo in July 2012, 
and in Chicago in May of that year, the international community 
pledged billions in support of the Afghan security forces and 
the Afghan economy beyond 2014. As in the United States, the 
fulfillment of these pledges is dependent on public support and 
parliamentary approval. Prolonged delay in concluding the BSA, 
and the also required NATO equivalent agreement, can only 
diminish the prospect that these pledges will be fully met.
    So, just to conclude, there, really, I have no doubt that 
the BSA ultimately will be concluded. I am concerned about the 
damage and the costs which a prolonged delay will create. I 
cannot predict with any certainty when it is going to be 
signed. I think there is some prospect that it could still be 
signed this year. But, you know, given my own discussions with 
the President last week, I am simply not in a position to 
provide you any assurances on that. It certainly continues to 
be our objective, and we are nowhere near a decision that would 
involve our departing Afghanistan altogether.
    [The prepared statement of Ambassador Dobbins follows:]

           Prepared Statement of Ambassador James F. Dobbins

    Mr. Chairman, Ranking Member Corker, members of the committee, 
thank you for the opportunity to appear before you today to discuss the 
transition in Afghanistan.
    As all of you know, the U.S. role in the latest chapter of 
Afghanistan's history began on September 11, 2001. Within a month, U.S. 
forces were in Afghanistan in pursuit of the al-Qaeda terrorists who 
planned the attacks and the regime that had given them sanctuary. That 
military involvement has now lasted more than a decade and has expanded 
to a NATO-led international coalition of 49 nations. The military 
campaign has been accompanied by a truly extraordinary international 
civilian campaign to help heal the scars of decades of war and years of 
life under a system of government that made the cruel commonplace and 
to ensure that such a government can never again return, to provide 
shelter to those who would threaten American citizens, interests, or 
allies.
    From the beginning, we have made clear that our role in Afghanistan 
and our presence there cannot be open ended. It has always been the aim 
of U.S. policy to strengthen Afghan institutions so that the Afghan 
Government and people can provide for their own security, grow their 
own economy, and manage their own internal and external affairs. The 
President has spoken of these three transitions: security, economic, 
and political. The underlying element of all three has been a gradual 
and responsible effort to help Afghans recover from decades of conflict 
and Taliban rule that damaged or destroyed nearly every institution in 
the country.
    A stable, democratic, and secure Afghanistan is a U.S. national 
interest; it will be a bulwark against al-Qaeda and other dangerous 
extremist groups and a partner in the effort to prevent those groups 
from using Afghanistan to plan and launch attacks against our people 
and our allies. And while Afghanistan still faces significant 
challenges, I can say with the perspective of having first led U.S. 
diplomatic efforts on Afghanistan 12 years ago, that we are closer than 
ever to achieving this goal. I'd like to spend a few minutes reviewing 
our efforts and the progress Afghanistan is making.
                  security transition and partnership
    The Enduring Strategic Partnership Agreement (SPA), signed by 
President Obama and President Karzai in May 2012, codified the terms of 
our partnership after 2014. It looked ahead to a Transformation Decade 
of cooperation, as the Afghans continued to strengthen their 
institutions, improve governance, and stabilize their economy. While 
making clear that the United States does not seek permanent bases in 
Afghanistan or a presence that is a threat to Afghanistan's neighbors, 
the SPA included a provision to negotiate a Bilateral Security 
Agreement (BSA) between the two countries which would govern future 
security cooperation.
    After a year of negotiations to conclude the text, that agreement 
was submitted 2 weeks ago to a Loya Jirga, a traditional gathering of 
2,500 Afghan leaders from all parts of the country. After 3 days of 
debate, the Loya Jirga overwhelmingly endorsed the BSA as written and 
urged President Karzai to sign it before the end of the year. This 
decision underscores the clear and strong desire of the Afghan people 
to continue their partnership with the United States and the 
international community and their determination to move forward, away 
from the Taliban past.
    The United States agrees with the Afghan people. Signing the BSA 
promptly is the path to a partnership in support of Afghan efforts to 
achieve lasting peace, security, and development. It will send an 
important signal to the people of Afghanistan, to the Taliban, to our 
allies and partners, and to the region. For the Afghan people, it will 
reduce anxiety and uncertainty about the future, allowing them to 
concentrate on the upcoming elections and to invest with confidence in 
their own economy. A signed BSA will tell the Taliban, who may think 
that the end of 2014 means the end of international support for 
Afghanistan, that their only path to peace is by ending violence, 
breaking ties with al-Qaeda and accepting the Afghan Constitution, 
including its protections for women and minorities. A signed BSA will 
assure the region that the United States will remain engaged there and 
not abandon Afghanistan as we did in 1989 after the Soviet withdrawal. 
To our NATO allies and other international partners, a signed BSA will 
open the door for NATO to begin negotiations on the Status of Forces 
Agreement (SOFA) with Afghanistan that will cover its forces 
participating in the train, advise, and assist mission.
    For all of these reasons, the administration is committed to 
expeditious signature of the BSA. Delaying signature is in no one's 
interest. Delay would add another element of uncertainty as Afghans 
prepare for the April, 2014 election to choose President Karzai's 
successor. For the United States and our NATO allies, delay means a 
lack of clarity needed to plan for a post-2014 military presence. That, 
in turn, would jeopardize fulfillment of the pledges of assistance that 
NATO and other countries made at the Chicago and Tokyo conferences in 
2012. As Ambassador Rice made clear in her recent visit to Kabul, 
although it is not our preference, without a prompt signature we will 
have no choice but to initiate planning for a post-2014 future in which 
there would be no U.S. or NATO troop presence in Afghanistan.
    Let me make clear, however, that plans are not decisions, and 
assure you that we are not about to decide to abandon all we and the 
Afghan people have achieved over the past 12 years. Based on the 
results of the Loya Jirga, expressions of public opinion throughout the 
country and discussions throughout my own visit to Kabul last week, I 
don't believe that there can be any serious doubt that the Afghan 
people want American and NATO forces to stay and recognize that the BSA 
is a necessary prerequisite. The BSA is also the keystone of a much 
wider international commitment, involving over 70 countries ready to 
provide economic and security assistance to Afghanistan beyond 2015.
    Afghanistan's regional neighbors, with the exception of Iran, also 
understand the importance of the BSA. President Putin of Russia, 
President Xi of China, Prime Minister Singh of India, and Prime 
Minister Sharif of Pakistan have all personally urged President Karzai 
to conclude the BSA in recent weeks. Several of these leaders are no 
fans of an American military presence in Central Asia, but all 
recognize that without continued international military and economic 
support, Afghanistan risks falling back into civil war, with the 
attendant rise in extremist groups, outflow of refugees and disruptions 
in commerce that would threaten the region as a whole.
    Given this coincidence of Afghan public and regional governmental 
opinion, I see little chance that the BSA will not be eventually 
concluded. Awaiting the arrival of the next Afghan President to do so, 
however, will impose large and unnecessary costs on the Afghan people. 
Already the anxiety caused by President Karzai's refusal to heed the 
advice of the Loya Jirga is having that effect. While in Kabul last 
week I learned from the World Bank and other sources that the Afghan 
currency is slipping in value, inflation increasing, capital fleeing, 
and property values dropping. Probably for the first time since 2001 
the outflow of population exceeds the return of refugees. The longer 
this uncertainty about the future international commitment to 
Afghanistan continues, the more anxiety will increase, potentially 
dominating the upcoming Presidential elections, threatening to turn 
these into a polarizing rather than unifying experience for the 
country.
    Prolonged uncertainty over the BSA will also erode larger 
international support for Afghanistan. At Tokyo in July 2012 and at 
Chicago in May 2012, the international community pledged billions to 
the support of the Afghan security forces and the Afghan economy beyond 
2014. As in the United States, the fulfillment of the pledges is 
dependent on public support and parliamentary approval. Prolonged delay 
in concluding the BSA, and the also-required NATO equivalent agreement 
can only diminish the prospect that these pledges will be fully met.
    As the President has said, the U.S. combat mission will end in 
Afghanistan at the end of 2014. The BSA does not prescribe the number 
of U.S. forces that may be present in Afghanistan after 2014, but it 
will give us the invitation to remain that President Obama will need as 
he makes that force-level decision. By next February, there will be 
34,000 U.S. troops in Afghanistan, down from roughly 100,000 at the 
height of the surge, and any post-2014 military presence will be much 
smaller. Those who remain will concentrate on two specific, narrow 
missions: counterterrorism operations against the remnants of al-Qaeda 
and its affiliates, and training, advising, and assisting Afghan 
security forces.
    It is important to note that, while the Afghan National Security 
Forces (ANSF) are still a work in progress, there is reason to be 
encouraged, thanks to capabilities that have been fostered and 
developed by the U.S. military and our allies. Our efforts are making a 
critical difference and can continue to do so. I should note that the 
Afghan people themselves share this assessment. According to a recent 
Asia Foundation survey, 88 percent of Afghans have confidence in the 
Afghan National Army and 72 percent in the Afghan National Police.
                    economic and social development
    I know that Assistant Administrator Sampler will talk about USAID's 
efforts to deliver and monitor civilian assistance in Afghanistan, how 
that assistance has improved the lives of ordinary Afghans, and the 
challenges his agency faces working in that country. I am happy to talk 
about the specifics of what we are doing, but I first want to offer 
some encouraging news about how we are doing overall. For the past 9 
years, the Asia Foundation has conducted a nationwide survey of Afghan 
attitudes and opinions, tracking long-term trends among the population. 
The latest annual Asia Foundation of more than 9,000 Afghans drawn from 
every province was released last week, and it confirmed, through the 
eyes of ordinary Afghans, the depth and durability of the progress 
Afghanistan has made, with our support.
    A few numbers stand out. Today, 57 percent of all Afghans believe 
their country is moving in the right direction. This number has 
increased steadily since 2008, when it stood at 38 percent. Not 
surprisingly, the majority--76 percent--said they were better off 
economically than they were under the Taliban. Three quarters gave 
their national government a positive assessment although they remained 
critical of subnational government and Parliament and concerned about 
corruption at all levels. Five in six Afghans--men and women--believe 
that women should have an education. Seventy-five percent believe it is 
acceptable to criticize the government in public--a sign of an active 
democracy with an independent media, which is the civilian institution 
in which Afghans have the most confidence. Sympathy for armed 
opposition groups is far lower than in 2009 and yet, nevertheless, a 
majority of Afghans understand the need for peace and support Afghan-
led reconciliation efforts. The overall picture is one of an aspiring 
nation that has witnessed and welcomed the progress that the 
international effort has helped bring about. These are the people whose 
representatives at the Loya Jirga overwhelmingly approved the BSA.
    This growing optimism among Afghans is due in part to the 
increasing capability of some of their institutions, none of which 
existed in 2001. According to the poll, the Afghan media is one of the 
country's most trusted institution. The growth of a free media is one 
of the great achievements of reconstruction in Afghanistan. When the 
Taliban ruled, people had few modern means to communicate with one 
another (there were fewer than 40,000 phones in the country) or to get 
information (there was one state-run TV station). Now, more than 18 
million Afghans have phones and the telecommunications network covers 
90 million of the population. Afghans are also eager for news, which 
they see on one of the 75 TV stations or hear on the 175 radio stations 
available. This is not, I should add, a triumph of quantity over 
quality. In the most recent worldwide assessment of press freedom by 
Reporters Without Borders, Afghanistan outranked Pakistan and India and 
every other country but one in its region. The Loya Jirga that 
considered the BSA was televised nationally and Afghans watched as 
their representatives debated their future. This would have been 
technically impossible and politically unimaginable 15 years ago.
    There is a body of research that demonstrates the effectiveness of 
the international effort in Afghanistan. Of the 20 major post-cold-war 
interventions conducted by the United States, United Nations, and 
others, Afghanistan had the greatest improvements in the U.N.'s Human 
Development Index, was third among 20 improvements in government 
effectiveness as measured by the World Bank, government, and was second 
out of these 20 in growth of per capita income. Afghanistan's progress 
should be compared with that of other countries that have faced similar 
levels of conflict. Even postwar stabilization in European countries 
over these same decades, where conditions for stabilization have been 
much more favorable, has taken many years.
    Afghan institutions are performing better, in part, because they 
are increasingly integrated within the regional economy of Central and 
South Asia. With considerable financial and technical assistance from 
the United States and American supported international agencies, 
millions of Afghans can now access electricity from power lines 
stretching across their northern border into Central Asia. In the last 
5 years, trade between Afghanistan with its South and Central Asian 
neighbors has far outpaced trade with the outside world. Building 
strong state, civil society, and private sector institutions by 
economically integrating Afghanistan within its neighborhood remains at 
the heart of our New Silk Road vision.
                          political transition
    Despite all of the focus on the BSA in recent days, the political 
transition is next year's critical event. A timely Presidential 
election in April can be a unifying moment for the country, 
consolidating the gains of the past decade and demonstrating that the 
Afghan people would rather use politics than violence to solve their 
differences. If successful, this will be the first peaceful transfer of 
power from one elected leader to another in Afghanistan's history.
    The Afghans have committed to holding credible, inclusive, and 
transparent elections, and they are on track to meet this commitment. 
Larry Sampler will talk about what we are doing to support this effort, 
so let me talk about what the Afghans have done and are doing. As with 
elections anywhere, many things can go wrong between now and election 
day in April, but Afghanistan is far ahead, in terms of technical 
preparations, of where it was in previous electoral cycles. 
Afghanistan's last elections were conducted under rules established by 
Presidential decree because the political system had been unable to 
reach consensus on necessary legislation. Compare that to today. This 
past summer, Afghan legislators passed the laws establishing the 
structures that will shape the vote and procedures to evaluate 
complaints. In July, President Karzai signed that legislation into law. 
Now, the Independent Elections Commission (IEC) is implementing those 
laws, working with the Ministry of Interior on the security plans that 
will be critical to the success of the election. The IEC is also 
engaged in a nationwide voter registration ``top up'' program, which, 
thus far, has enrolled 3.1 million new voters of which 1 million are 
women. Although women's participation in the process still needs to 
improve, 3 of the prospective Vice Presidents are women, as are over 
300 (11 percent) of the provincial council candidates. Presidential 
candidates have registered and last month the IEC approved a final 
official list of 11 candidates. Official campaigning gets underway in 
February, when rallies, ads, and televised debates will take place.
    We have made clear that, in the upcoming election, the United 
States will support the process, not any individual party or candidate. 
We will continue to assist Afghan electoral authorities, the Afghan 
Government, Parliament and civil society in their efforts to strengthen 
the electoral system and to minimize electoral fraud. While the Afghan 
Government has taken encouraging steps to ensure security for poll 
workers, the Independent Election Commission and other elections-
related workers, we will continue to monitor security trends as the 
elections near. Our military experts are also helping the Afghans with 
security planning. That said, ISAF planners have been surprised by the 
extremely limited number of requests from the Afghan security forces as 
they support IEC voter registration efforts in insecure areas of the 
country--what is, in effect, a dry run for the challenges they will 
need to handle during next April's vote.
    Enduring stability will require reconciliation and we remain 
committed to supporting an Afghan peace process. Our objective has 
been, and continues to be, to promote and support a political process 
by which Afghans sit down with other Afghans to determine the future of 
their country. The outcomes of peace and reconciliation must be the 
Taliban and other insurgent groups breaking ties with 
al-Qaeda, ending violence, and accepting Afghanistan's constitution, 
including its protections for women and minorities. Even as we remain 
committed to supporting a peace process, we do not plan to let up our 
fight against international terrorism in Afghanistan or our support to 
Afghan forces. Our military and diplomatic efforts continue to be 
mutually reinforcing.
    I do not mean to present an overly rosy picture of Afghanistan's 
present or future. Many challenges remain. The Taliban continue to 
fight. Afghanistan remains one of the poorest countries in the world 
and the drawdown of international military forces will reduce economic 
growth. Afghans still need to put in place the physical infrastructure 
and legal framework to encourage long-term sustainable development and 
attract private investment. Corruption is a major problem--one the 
Afghan public is aware of and one the Afghan Government promised to 
reduce as part of the Tokyo Mutual Accountability Framework. The 
narcotics trade is far from under control, as the recent announcement 
of a record poppy harvest showed. All of these require sustained 
commitment from the Afghans and the further development of their 
institutions to remedy. But most Afghans want to fix them, as the 
survey shows, and international support is vital to helping them do so.
    As we focus on the pivotal year 2014, which will mark the end of 
the U.S. combat mission and what we hope and expect will be the 
successful transfer of power to a new, democratically elected Afghan 
President, we should also keep an eye on the future of this region. 
Afghanistan has a young population; more than 65 percent of Afghans are 
under 25 and the average age is 18. Over the last decade many of these 
young Afghans have gone to school, learned to use e-mail, set up 
Facebook pages, become connected to other Afghans outside their 
provinces and ethnic groups, reclaimed their artistic heritage, become 
familiar with other countries and ways of life, even learned English. 
(There are 1.5 -2 million Internet users.) They participate in civil 
society and establish think tanks. They are moving from the rural areas 
to the cities for jobs and education. Sustaining our relationship with 
Afghanistan means maintaining our connection with those young Afghans. 
Their future is crucial to the stability of the region and ultimately 
the security of the United States. Right now these young men and women 
want democracy, access to free media, economic opportunities, 
transparency, and education. A partnership with the United States will 
help them consolidate the institutions that did not exist 12 years ago, 
but which have grown in their lifetimes and which will help ensure that 
these youth rebuff the recruitment of extremists and help to build a 
peaceful democratic partner for the United States and our allies.
    In conclusion, let me emphasize that despite the many challenges, 
we have much to build on as we look to the future of America's 
partnership with Afghanistan. Thanks in large part to the generosity of 
the American people, the courage of its men and women in uniform and 
the bipartisan support of Congress, Afghanistan is a fundamentally 
different country than it was 12 years ago. It remains a hopeful 
country, although uncertainty over conclusion of the BSA is 
unnecessarily increasing anxiety at just the point in Afghanistan's 
growing self-reliance where reassurance is most necessary. This 
administration looks forward to continuing its work with Congress to 
help ensure that as these hopes are realized our own vital national 
security interests are secured.

    The Chairman. Thank you.
    Mr. Sampler.

 STATEMENT OF DONALD L. SAMPLER, JR., ACTING ASSISTANT TO THE 
ADMINISTRATOR, OFFICE OF AFGHANISTAN AND PAKISTAN AFFAIRS, U.S. 
      AGENCY FOR INTERNATIONAL DEVELOPMENT, WASHINGTON, DC

    Mr. Sampler. Chairman Menendez, Ranking Member Corker, 
members of the committee, thank you for the opportunity to 
testify today.
    I have been working on and in Afghanistan in both civilian 
and military capacities since 2002. In addition to having 
worked with the Afghan emergency Loya Jirga and the Afghanistan 
constitutional Loya Jirga, I have served as a representative of 
an international NGO, a senior advisor to two ISAF commanders, 
and as chief of staff to the U.N. Assistance Mission in 
Afghanistan.
    After the fall of the Taliban regime, I saw, firsthand, an 
Afghanistan that had been devastated by decades of conflict. 
The unprecedented investment by United States taxpayers and the 
international community, in partnership with the Afghans 
themselves, has created transformational changes in Afghanistan 
that are reflected in the United Nations 2013 Human Development 
Index. Afghanistan improved its score in that index more than 
any other country in the index of that year, an improvement of 
about 60 percent. Changes of this magnitude are not made 
overnight, especially in such a deeply traditional society and 
in such a challenging operational environment. The results of 
international civilian assistance are significant, but fragile.
    Just a few examples: In 2002, there were only 900,000 
Afghan children in school, and virtually no girls. Today, 
nearly 8 million children are in school, and 30 percent of them 
are girls. Life expectancy in Afghanistan has increased from 42 
years to over 62 years. The maternal mortality rate has 
declined by 80 percent, and child mortality has decreased by 
just under 50 percent.
    In 2002, only 6 percent of Afghans had access to 
electricity. Today, that number is 18 percent. And the Afghan 
electric utility is well on its way to financial stability.
    In 2002, there were very few fixed telephone lines, and a 
call outside of Afghanistan required a satellite phone. Today, 
the combined phone networks in Afghanistan cover 90 percent of 
the Afghan population, and 85 percent of women have access to a 
cell phone. Today, there are over 3,000 women-owned businesses 
and associations, almost 20 percent of Afghans enrolled in 
higher education are women, and women are active participants 
in the Afghan political process.
    As we enter the transition period of 2014, USAID's strategy 
is threefold: to maintain and make durable the gains that have 
been made in health, education, and the empowerment of women; 
to mitigate the economic consequences of the military drawdown; 
and to foster improved stability by supporting legitimate and 
effective Afghan governance, to include the 2014 elections.
    USAID places a high priority on ensuring that American 
taxpayer dollars are used wisely. While many of the issues in 
Afghanistan are unique to that country, monitoring projects in 
challenging environments is something that USAID does around 
the world, and does very well. In designing the Afghanistan 
monitoring strategy, USAID incorporated lessons learned from 
our monitoring programs around the world, to include Colombia, 
Iraq, Pakistan, and South Sudan. I will note that these 
programs that form the basis of our Afghanistan monitoring 
program have been reviewed in six separate USAID Office of the 
Inspector General reports as well as three reports by the 
General Accountability Office.
    Finally, external audits provide useful oversight and 
discipline, and they complement and reinforce USAID's own 
efforts to ensure U.S. tax dollars are used effectively and 
efficiently. There are currently over 100 audits ongoing of 
USAID programs in Afghanistan.
    The bottom line is that USAID will terminate programs if 
the agency determines that adequate oversight is not possible 
or that adequate development progress is not being made.
    With respect to the elections, a credible, transparent, and 
inclusive electoral process is central to the U.S. Government's 
transition strategy and critical to Afghan stability and 
democratic development. USAID remains focused on supporting an 
inclusive and democratic process by supporting Afghan electoral 
authorities and by building the capacity of democratic 
stakeholders in Afghanistan so that they can participate in the 
elections in a robust and informed way. USAID supports 
independent domestic observers, civil society, media, and 
political parties, helping them appropriately engage in the 
democratic process.
    USAID is supporting the participation of women in all 
aspects of the electoral process, promoting the hiring and 
training of female polling staff, promoting public outreach to 
women voters by civil society and by public officials, and 
enhancing the ability of women candidates to campaign 
effectively.
    In conclusion, I have worked in Afghanistan as a member of 
the Department of State, USAID, and the U.S. military. I have 
attended ramp ceremonies for the fallen heroes of all three 
organizations. I am personally, and USAID is institutionally, 
keenly aware of the enormous sacrifices made by Americans to 
build a secure and a stable Afghanistan. And we fully 
understand the need for constant vigilance, particularly during 
this delicate transition period. We are making tough decisions, 
we are prioritizing our investments, and we are looking for 
things that have the greatest potential for long-term success.
    As USAID navigates the 2014 transition period, we continue 
to be committed to safeguarding taxpayer resources and to 
ensuring that the remarkable levels of development progress 
made in Afghanistan are maintained and made durable.
    It is an honor to be here today and to be able to share 
with you a small glimpse of what USAID is doing in that regard. 
I look forward to your questions.
    [The prepared statement of Mr. Sampler follows:]

                Prepared Statement of Donald L. Sampler

    Chairman Menendez, Ranking Member Corker, and members of the 
committee, thank you for allowing me the opportunity to testify before 
you today to discuss the role of the U.S. Agency for International 
Development (USAID) in advancing U.S. Government policy through USAID's 
civilian assistance program during the transition in Afghanistan. It is 
an honor to appear before you today with Ambassador Dobbins.
    USAID has been fully engaged in Afghanistan for 12 years, and 
during that time Afghanistan has made remarkable development gains in 
many sectors. This transition period is a pivotal moment for 
Afghanistan, in anticipation of which USAID has been planning and 
adjusting its programming to maximize sustainability and 
accountability.
    I have been working on and in Afghanistan in both civilian and 
military capacities since 2002. In addition to having worked with the 
Afghan Constitutional Loya Jirga and the Afghan Emergency Loya Jirga, I 
have served as a representative of an international nongovernmental 
organization, and as chief of staff of the U.N. Assistance Mission to 
Afghanistan. I bring these perspectives to USAID's work today.
    Continued U.S. engagement is critical to Afghanistan's stability 
and to protecting the vital interests of our own country. Improving 
governance, creating economic opportunity, and supporting civil society 
are critical to solidifying our military gains and advancing our 
political and diplomatic goals for Afghanistan and the region. In order 
to achieve these goals, USAID has reoriented its assistance program to 
lessen its stabilization work and place an even greater emphasis on 
long-term, sustainable development programming.
                           usaid and results
    After the fall of the Taliban regime, I saw firsthand an 
Afghanistan devastated by decades of conflict. The unprecedented 
investment by U.S. taxpayers and the international community, in 
partnership with the Afghans, has created transformational changes in 
Afghanistan that are reflected in the United Nation's 2013 Human 
Development Index. Afghanistan improved its score more than any other 
country in the index since 2000 on a percentage basis: a nearly 60 
percent increase. Although Afghanistan had a very low starting point, 
the upward trends show powerful aggregation over a decade and strongly 
reflect areas of USAID investment.
    Changes of this magnitude are not made overnight, especially in 
such a deeply traditional society and challenging operational 
environment. The results of international civilian assistance, led by 
USAID in concert with the broader U.S. Government, are significant, 
though fragile:

  <bullet> Education: In 2002, there were only 900,000 Afghan children 
        in school, and virtually none of them were girls. Today, nearly 
        8 million children are registered to attend school and more 
        than one-third of them are girls.
  <bullet> Health: Life expectancy has increased from 42 years to over 
        62 since 2001; the maternal mortality rate has declined by 80 
        percent from 1,600 deaths to 327 per 100,000 births; and child 
        mortality decreased from 172 to 97 deaths per 1,000 live 
        births.
  <bullet> Energy: In 2002, only 6 percent of Afghans had access to 
        reliable electricity. Today 18 percent do. In addition, USAID 
        assistance has helped put the Afghan national power company 
        (DABS) on a path to become fully self-sustaining. DABS 
        collected $220 million from the sale of electricity in 2012, an 
        increase of 67 percent from 2010.
  <bullet> Mobile Technology: In 2002, there were few fixed telephone 
        lines and making calls outside of Afghanistan required a 
        satellite phone. Today, the combined phone network covers 90 
        percent of the Afghan population; 85 percent of women have 
        access to a mobile phone. The telecommunications sector is 
        Afghanistan's greatest source of foreign direct investment, 
        largest remitter of taxes to the government, and biggest licit 
        employer, providing jobs for 100,000 Afghans.
  <bullet> Women: Today, there are over 3,000 women-owned business and 
        associations; almost 20 percent of Afghans enrolled in higher 
        education are women; and women are active participants in the 
        Afghan political process, with three female Cabinet members of 
        the Afghan Cabinet, 68 Members of Parliament (of the 249 
        seats), and three women Vice Presidential candidates.
                       usaid transition strategy
    Over the last 2 years USAID has regularly reviewed and adjusted its 
programs to ensure that they advance the administration's strategic 
objectives and are necessary, achievable, and sustainable. USAID's 
transition strategy is threefold:

  <bullet> Maintain and make durable the gains made in health, 
        education, and the empowerment of women;
  <bullet> Mitigate the economic impact of the drawdown through a 
        robust focus on the agriculture sector, private sector 
        development, the operations and maintenance of infrastructure 
        investments, and the future potential of the extractives 
        industry; and,
  <bullet> Foster improved stability by supporting legitimate and 
        effective Afghan governance, including the 2014 Presidential 
        election.

    Operationally, USAID has adjusted its implementation model to 
improve sustainability and meet the challenges presented by the 
transition through:

  <bullet> Focusing assistance in Regional Economic Zones (REZs) that 
        cover major population centers and promote regional trade and 
        economic opportunities;
  <bullet> Developing a multitiered oversight strategy that, along with 
        other monitoring and evaluation efforts, will continue to 
        ensure adequate oversight over projects in the field, as field 
        staff decrease;
  <bullet> Transforming USAID's approach in Afghanistan to one of 
        mutual accountability, ensuring alignment with Afghan 
        priorities and promoting Afghan reforms; and
  <bullet> Implementing USAID's 2011 Afghanistan Sustainability 
        Guidance, which emphasizes the principles of (1) increasing 
        Afghan ownership and capacity; (2) contributing to stability 
        and confidence, and (3) effective and cost-efficient 
        programming.

    With these parameters in mind, USAID works in coordination with the 
U.S. Government interagency and the Afghan Government to review and 
revise USAID's Afghanistan portfolio. For example, in consultation with 
the Government of Afghanistan in 2012, USAID substantially downscaled a 
5-year, $32 million agricultural faculties program found to be 
duplicative of efforts by another donor.
    Sustaining the development gains made over the past decade will 
require continued reforms by the Afghan Government. USAID is active in 
promoting these necessary reforms in coordination with our 
international partners through the Tokyo Mutual Accountability 
Framework (TMAF). As part of TMAF, USAID has established a bilateral 
incentive fund to encourage action on key reforms. Funds will be 
released as the Afghan Government meets certain thresholds of progress 
on the key TMAF indicators.
    For instance, as a result of the Afghan Government's progress in 
meeting commitments related to the upcoming elections, USAID is 
preparing to release $15 million (out of the $75 million in incentive 
funds for this year) through the World Bank's Afghanistan 
Reconstruction Trust Fund (ARTF). The Afghanistan Ministry of Finance 
is now working with other Ministries to undertake agreed reforms to 
ensure that the remaining $60 million of U.S. incentive funds for this 
year are focused on Afghan priorities. In addition, the United States 
coordinates closely with the Afghan Government and other donors to 
prioritize reform objectives and coordinate other incentive programs, 
including those that are part of the ARTF.
    Throughout this transition, USAID continues to closely coordinate 
with the Departments of Defense and State and other relevant agencies. 
For example, USAID has placed Liaison Officers with both the 
International Security Assistance Force (ISAF) Joint Command and the 
Special Operations Joint Task Force to advise these commands on the 
design and implementation of development projects. USAID has two 
representatives on the Department of Defense's Commanders Emergency 
Response Program Board, and these positions ensure the Agency's 
visibility on proposed military development projects and synergies of 
such projects with USAID's programming. USAID also participated in the 
Department of State-led ``Transfer of Tasks'' exercise, which helped to 
inform the U.S. Embassy and USAID mission on how to responsibly 
transfer development-related activities undertaken by ISAF to other 
U.S. Government entities or to the Afghan Government. Throughout this 
process, USAID has drawn on lessons learned from the Iraq experience to 
help navigate the transition period.
                      oversight and accountability
    USAID places the highest priority on ensuring that American 
taxpayer funds are used wisely, effectively, and for their intended 
purpose. While many of the issues in Afghanistan are unique to that 
country, monitoring projects in very challenging environments is 
something the Agency has been doing for years in many places around the 
world.
    In addition to the usual oversight USAID undertakes in every 
country where it works, USAID's Accountable Assistance for Afghanistan 
initiative (known as A3) focuses on four areas:

    1. Award Mechanisms--We rely less on large agreements and have 
increased the number of smaller and more flexible agreements. We are 
also utilizing assistance awards that provide the most visibility on 
project costs, such as cost-reimbursable contracts and limiting layers 
of subcontracts to two.
    2. Partner Vetting--The USAID mission established a Vetting Support 
Unit in February 2011. The unit conducts checks on non-U.S. companies 
and non-U.S. key individuals for prime contractors, subcontractors, 
grant recipients and subgrantees to determine whether or not they are 
associated with known malign entities or individuals. We have kept 
$41.5 million from being awarded as a result of our vetting process.
    3. Financial Controls--We are enhancing controls on project funds, 
such as using electronic funds transfers in lieu of cash payments, 
using independent financial monitors to verify appropriate usage of 
funds, ensuring close review of recipients/contractor's claims prior to 
payment, and performing audits of locally incurred cost.
    4. Project Oversight--USAID uses a multitiered monitoring approach 
that includes, as appropriate, independent monitoring contractors; 
observation by U.S. Government staff; reporting by implementing 
partners, local nongovernmental organizations and civil society; and 
use of technological tools, such as time- and date-stamped photos. By 
using multiple sources of monitoring data, USAID can compare 
information received from separate sources to ensure the greatest 
degree of oversight possible.

    USAID will terminate projects, or specific activity sites within 
projects, if the Agency determines that adequate oversight is not 
possible or adequate development progress is not being made. In 
designing the Afghanistan monitoring strategy, USAID incorporated 
lessons learned from its use of third-party independent monitoring in 
challenging environments across the world, including Colombia, Iraq, 
Pakistan, and South Sudan, as well as from the USAID Office of 
Inspector General (OIG) and U.S. Government Accountability Office (GAO) 
audits, as well as public feedback.
    USAID has also developed a new unit at the mission, the 
Implementation Support Team, which is responsible for providing an 
additional layer of critical review and analysis for the many streams 
of monitoring information and for providing USAID leadership with 
alternative courses of action for addressing challenges with project 
implementation. In addition, USAID is continuing its close coordination 
with other donors to share best practices and expertise on monitoring.
    USAID also has a rigorous system of oversight for its ``on-budget'' 
programming with the Afghan Government. This means that USAID conducts 
assessments to ensure that each Afghan ministry or entity has systems 
in place to manage on-budget assistance. To date, USAID has assessed 13 
ministries, but has limited its on-budget assistance to 6 ministries, 
subject to stringent safeguards.
    For ``on-budget'' assistance, USAID utilizes multiple levels of 
protection to mitigate risks before disbursing any funds. These 
measures may include, but are not limited to, requiring the Afghan 
Ministry of Finance to establish noncommingled, separate bank accounts 
for each project with USAID; disbursement of funds only after USAID has 
verified that the ministry has achieved a performance milestone or 
USAID has verified accrued costs; an annual audit by a USAID OIG-
approved firm; substantial involvement and oversight by USAID staff in 
procurement processes; independent management, monitoring and 
evaluation of services; and technical assistance to increase the 
capacity of ministries while addressing any vulnerabilities or 
weaknesses identified in the assessments. All ``on-budget'' assistance 
requires compliance with USAID accountability and oversight procedures, 
including site visits to ministries by USAID staff or independent 
contractors, as well as regular reporting. Ministries are required to 
fully comply with the mitigation measures prior to and throughout the 
disbursement process. If Afghan ministries fail to adhere to these 
measures, the agreements are subject to immediate suspension or 
termination.
    For example, USAID has worked closely with the Ministry of 
Education to assess its financial management systems, implement 
extensive mitigation measures for the risks these assessments 
identified, and audit their progress and monitor results. USAID 
negotiated a stringent series of preconditions and financial controls 
pursuant to the launch of a $27 million textbook printing program, part 
of the Basic Education, Literacy, and Technical Vocational Education 
and Training Project. The specific steps USAID required to mitigate 
these risks included use of a noncommingled separate bank account from 
which all project disbursements are to be accounted for; an annual 
audit including quarterly audit testing of all project disbursements 
under the agreement by an OIG-approved certified public accounting 
firm; and USAID involvement and mandatory clearance of the textbook 
procurement cycle for each separate procurement undertaken under the 
agreement. USAID subsequently obligated a total of $20 million toward 
the agreement, and to date $11.7 million has been disbursed.
    Finally, audits provide useful oversight and discipline, and 
complement and reinforce USAID's own efforts to ensure U.S. tax dollars 
are used effectively and efficiently. There are currently over 100 
ongoing audits of USAID programs in Afghanistan. In fiscal year 2013, 
the GAO, USAID OIG, and Special Inspector General for Afghan 
Reconstruction (SIGAR) completed over 65 financial and program audits 
in Afghanistan.
    Oversight is a process that requires continual reexamination and 
the ability to adjust to new circumstances as they arise. Although 
there are inherent risks in doing business in a country like 
Afghanistan, we work hard to ensure taxpayer dollars are adequately 
protected while carrying out a vital component of the U.S. Government's 
national security policy.
                afghanistan 2014 elections: usaid's role
    A credible, transparent, and inclusive electoral process is central 
to the U.S. Government's transition strategy and critical to Afghan 
stability and democratic development. Afghanistan has made significant 
progress, with support from USAID, toward holding elections in April 
2014: two key election laws were passed over the summer, marking the 
first time the Parliament directly approved the electoral process. 
Commissioners to the Independent Electoral Commission (IEC) and the 
Independent Electoral Complaints Commission (IECC) have been appointed 
through a consultative process, and have proceeded to implement 
responsible plans for conducting polls for the April 5 vote. Candidates 
registered for the Presidential and Provincial Council elections in an 
orderly fashion, and the final candidate lists were prepared after 
complaints were addressed by the appropriate Afghan institutions. In 
short, there has been significant progress on multiple elements of the 
necessary electoral machinery, pointing toward a timely and credible 
election this spring.
    USAID, in coordination with partners in the U.S. Government and the 
international community, remains focused on supporting an inclusive and 
democratic process by supporting Afghan electoral authorities and by 
building the capacity of democratic stakeholders in Afghanistan to 
participate in a robust and informed way. USAID is the lead donor to 
the IEC and IECC through the United Nations Development Programme 
(UNDP) ELECT II basket fund, which provides expert advice and mentoring 
to the IEC and funds key election procurement, training, and logistics. 
USAID is also funding IECC activities through the UNDP ELECT II basket 
fund. In addition to the electoral authorities, USAID supports 
independent domestic observers, civil society, media, and political 
parties, helping them appropriately engage in the democratic process.
    USAID is supporting the participation of women in all aspects of 
the electoral process: promoting the hiring and training of female 
polling staff; promoting public outreach to women voters by civil 
society and public officials; and enhancing the ability of women 
candidates to campaign effectively.
    Despite many existing and potential challenges, Afghans have 
demonstrated through every stage of the election planning process that 
they see a successful election as the only acceptable option to decide 
the leadership of their next government. The U.S. Government, through 
USAID and other departments, is providing across-the-board support to 
help ensure this happens.
                               conclusion
    USAID always keeps in mind the enormous sacrifices made by 
Americans to build a secure and stable Afghanistan, and we fully 
understand the need for constant vigilance, particularly during this 
delicate transition period.
    Throughout our efforts, we are applying important lessons from the 
past 12 years in Afghanistan, as well as from other high-risk 
environments in which USAID has worked. Weaning Afghanistan from 
unsustainable levels of assistance is necessary for us, and essential 
for them, and we are making tough decisions and prioritizing 
investments that have the greatest potential for long-term 
sustainability. As USAID navigates through the 2014 transition period, 
we are committed to expending every effort to safeguard taxpayer funds 
and ensure that the remarkable development progress in Afghanistan is 
maintained and made durable.
    Denying al-Qaeda a chance to rebuild in Afghanistan remains 
America's primary mission in that country, and the programs implemented 
by USAID are essential elements to the success of that goal, 
particularly through the transition period.
    It is an honor to be able to share with you today a small glimpse 
of what USAID is doing in that regard. I look forward to answering any 
questions that you may have.

    The Chairman. Well, thank you both.
    Let me start off with Ambassador Dobbins. What is Karzai's 
purpose? It seems to me that he is putting his country, his 
legacy, maybe even his personal security at risk. What is his 
purpose?
    Ambassador Dobbins. Well, I think----
    The Chairman. You need to put your microphone on.
    Ambassador Dobbins. Sorry.
    I can tell you what--you know, the kinds of conditions he 
is laying down. I would have to speculate about what further 
purposes may be beyond it. But, although he has spoken 
generally about a number of different desiderata, they 
basically come down to two, as far as we can determine. You 
know, one is a peace process, and the second is no entry into 
Afghan homes, sanctity of Afghan homes.
    On the first, we, of course, have supported reconciliation. 
We have tried to advance reconciliation. His position, at the 
moment, seems to be that we actually have to succeed in 
initiating a formal, overt, public Afghan Government/Taliban 
peace negotiation before he will sign the BSA. Now, I have 
noted to him that the Taliban have no real incentive to 
facilitate his signing a BSA, and that this conditionality 
actually probably works against what he would like to see. Not 
that we are opposed to a peace process; on the contrary, we 
are----
    The Chairman. Right.
    Ambassador Dobbins [continuing]. All for it. So, that is 
one of his desiderata.
    And the second is--in the context of the BSA and in the 
context of the--on the text of the BSA and then an assurance he 
got from the President alongside it, you know, we have 
committed to respect the sanctity of Afghan homes and to 
operate in ways that recognize the importance of privacy and 
safety within the home. He seems to be interpreting this as: 
Under no circumstances, in any case, even if accompanied by 
Afghan troops, and even if Afghan troops are actually leading 
the operation, should the United States forces participate in 
entering and searching a home in search of a terrorist.
    So, we think both of these are a bit of an overstretch. 
Now, it could be that, in the end, formulas will be determined 
that are mutually acceptable. Clearly, what he is asking is 
beyond where we are likely to be able to accommodate him. But, 
he may see this as the beginning of another negotiation.
    The Chairman. I know that your testimony said you feel that 
we definitely will get there. But, is there a breaking point 
here? Is there a point in which the consequences of not having 
a signed agreement are going to have--you refer to some of the 
consequences. Certainly, when I was there earlier this year, 
there was a real concern, both among Afghanistan's neighbors 
and internally in Afghanistan, about people hedging their bets, 
about having that sense of confidence for the future, 
especially as the 2014 elections are pursued. Are there not 
real consequences?
    And, as part of that answer, can you talk a little bit 
about the regional implications of this agreement and political 
transition--can you describe what diplomatic efforts and 
planning to address the concerns expressed by some of our 
partners in the region, and perhaps, through that process, 
mitigate potential second- and third-order effects of the 
transition?
    Ambassador Dobbins. Well, I agree with you entirely. 
Senator, on the consequences of delay. I think your opening 
statement and mine were almost, you know, at perfect parallel 
on those consequences, and they----
    The Chairman. Please have the State Department note-taker 
put that down in their report back to the State. [Laughter.]
    Ambassador Dobbins. And the longer the delay is, the 
greater those consequences are.
    Is there a point at which walking away from Afghanistan 
would be better than continuing to live with uncertainty? 
Personally, I do not think so. Because I think the consequences 
of leaving entirely would be even more catastrophic. But, 
clearly, the sooner the better.
    We are engaged with the neighboring countries. You 
mentioned President Karzai has just visited Iran, but he is 
also in--I think, 3 days from now, going to be visiting India, 
where he will meet with the Prime Minister and other leaders in 
India. He is visiting Turkey shortly thereafter. We have 
already mentioned what Russia, what China, what Pakistan have 
said. So, I think that, with the exception of Iran, there is 
quite a remarkable, actually, international consensus that, 
while the United States should not stay forever, it should stay 
for a while longer.
    I do think that, to the extent we----
    The Chairman. Well, he knows that, too, right? Part of his 
willingness to delay is because he believes that, at the end of 
the day, it is not in our interests not to stay. So, in doing 
so, he thinks he has leverage, in that regard.
    Ambassador Dobbins. I think that is probably accurate. What 
I think--the most viable sort of leverage, I think, is probably 
domestic; that is, his supporters, his political opponents, the 
media, the public. I mean, this is on every talk show, every 
night, and they have got 76 channels of television there. This 
is a big topic. It is the main topic of public debate. And 
there is, as we have both noted, overwhelming support within 
the population. And I am hopeful that, over time, that will 
begin to have an effect, along with whatever advice he gets 
from friendly neighbors, of whom, for instance, his upcoming 
visit to India could, I think, be quite influential, because he 
highly respects and has good relations with the Indian 
Government.
    The Chairman. Finally, part of Afghanistan's future is 
going to be in its regional integration in trade opportunities. 
And I think a lot of that is embodied in the administration's 
new Silk Road Initiative. I think that the FY14 Foreign 
Operations bill, which passed out of the Appropriations 
Committee this year, wisely calls for a plan to integrate the 
functions of your office back into the Bureau of South and 
Central Asian Affairs. Can you shed some light on the State 
Department's plans to integrate SRAP and SCA, and what 
challenges are there in conducting that integration?
    Ambassador Dobbins. I--you know, I think--I would not say 
we have a plan. I think there is a sort of a general working 
assumption that the transition, in end of 2014, where we move 
from a large combat presence to a small train-advise-and-assist 
presence, would be a logical breakpoint, where you might make 
some changes in the way the State Department is organized.
    On the other hand, even under those circumstances, 
Afghanistan is still going to be one of our largest, if not the 
largest--certainly, it will be the country in which we are most 
heavily engaged in a country that is still undergoing conflict. 
And whether you would want to just turn this over to the Afghan 
desk officer, I am not sure. So, I think reintegration into the 
Bureau, in some circumstances, in some manner, might well make 
sense.
    I mean, when I was the Special Envoy for Afghanistan, back 
in 2001, I was administratively attached to the South Asian 
Bureau. When I was the Special Advisor to the President and 
Secretary of the State for the Balkans, I got my administrative 
support from the European Bureau, as opposed to from the 
Secretary's office directly. Although, in both cases, I had 
direct access to the Secretary of State.
    The Chairman. Well, I am certainly not suggesting, nor do I 
think the subcommittee suggests, that it be the Afghan desk 
officer that deals with the major account that we have in this 
part of the world. But, I think there is some benefit in 
integration, because it is not just Afghanistan that we are 
focused on there; it obviously has regional consequences, as 
well. And I would love to see the continuing development and 
thought of the State Department in that regard.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman and, again, to both 
of you, for your testimony.
    You know, for a long time, there has been a push by many to 
try to get the administration to commit to what the troop 
levels were going to be if there was a bilateral agreement that 
was agreed to. And I know there have been specific ranges that 
we have talked about, in combination with NATO, and then a 
contingent of Special Ops, aside from that operation, that we 
would have, unilaterally. Has the--do you think, to any degree, 
the lack of our willingness, if you will--the administration's 
willingness--to actually commit to firm troop levels--or, firm 
commitment to troop levels--has that entered into Karzai's 
flakiness on this issue?
    Ambassador Dobbins. Probably not. Karzai has shown 
complete, total disinterest in troop levels or even assistance 
levels, and is focused on some of these other issues that 
clearly are hot buttons with him. I think his working 
assumption is, we will do what is necessary, as Senator 
Menendez indicated, and that, therefore, he can take that for 
granted. We try to tell him that American opinion is not 
exactly where he thinks it is, and there--that he is--you know, 
that he is playing with fire.
    And it was instructive that the Foreign Minister of Iraq 
visited, 10 days ago, met with President Karzai and said, ``Do 
not make the same mistake we did. You know, we kissed the 
Americans good-bye, and we need them today.''
    Senator Corker. So, let me ask you--obviously, you assess, 
you know, the need for troops, or the levels of those troops, 
based on conditions on the ground. And you just mentioned that 
things obviously are deteriorating. I mean, part of having 
security in the country is having appropriate economic growth 
and all of those kinds of things. And these actions on his part 
are causing that to deteriorate. Is this situation in 
Afghanistan, is it affecting how you are discussing troop 
levels right now? And is that moving up or down based on the 
changes that are happening there internally?
    Ambassador Dobbins. I do not think the negative trends that 
I have suggested have yet manifest themselves in a degree that 
would impact the battlefield. I mean, it is only been, what, 2 
weeks, 3 weeks that we have faced this problem that Karzai gets 
endorsement for it but says he does not want to sign it during 
his term of office. As I have said, there are already some 
manifestations, in terms of the economy, but they are limited--
--
    Senator Corker. Will it, over time, affect things in that 
way, if it goes out to the end of the election and----
    Ambassador Dobbins. Possibly, yes. I think, if the 
uncertainty persisted through the summer, we would have less 
allies when we finally do confirm this, we would have less 
public support in this country when we finally get an 
agreement. We might even have less support here in the 
Congress, although I would hope not. But, these are real 
dangers. And would it affect morale on the battlefield? So far, 
that has not been a problem. So far, the Afghan Army has been 
performing well, taking high casualties, replacing them, 
fighting hard. But, frankly, if this uncertainty persisted and 
was exacerbated by regional interference of the sort that we 
have seen in other decades, you could draw a lot of very 
unpleasant scenarios.
    I think we need to try to ensure that it does not unravel 
in that regard over the next several months. But, I agree that 
these are dangers.
    Senator Corker. And I know, with Iraq, you alluded to that, 
but a big part of that, I think, was what we were leaving 
behind was so insignificant that I think Iraqi political 
leadership decided it was not worth the internal grief, if you 
will, to enter into an agreement. I do not sense anything like 
that is at play here, and I do sense there is a sincere effort, 
on behalf of our country, to end up with a bilateral agreement 
that leaves a substantial number of folks there to see this 
through. And, to that end, in talking about our internal 
situation, other than preserving our gains, how would you, as 
our special envoy--how would you describe what our national 
interests are in Afghanistan as people watch a President there, 
if you will, turn his back on all the things that have happened 
there over the last 10 to 12 years?
    Ambassador Dobbins. We obviously have an interest in 
preventing al-Qaeda from repositioning itself in Afghanistan, 
from being able to operate with the active collaboration of a 
government that supports it, which was the case before 2001 and 
which would be the case again if the Taliban were to come to 
power in part or all of Afghanistan. They remain the link to 
al-Qaeda. We have no reason to believe that they would not 
continue to allow al-Qaeda to use the territory and to actually 
facilitate their use. So, that is one.
    We have an interest in preventing even a largely dismantled 

al-Qaeda from rebuilding itself within an Afghan sanctuary, 
which, again, would be a real possibility if the Taliban were 
to come back to power.
    We also have an interest in preventing Afghanistan from 
simply falling into a wider civil war, which would become 
exactly like Syria, a magnet for extremists, militants of all 
stripes, including 
al-Qaeda, but not just al-Qaeda, some with global agendas and 
some with desires to attack the United States at home and 
abroad. We do not need another ungoverned space, another 
country like Somalia, like Yemen, like Syria, that has no 
capacity to control its own territory and which is in an 
ongoing and everlasting conflict which attracts every extremist 
in the world to plant their flag, to recruit, to fundraise, and 
to use that conflict as a basis for wider action.
    Senator Corker. Well, I thank you for that answer.
    In regards to Karzai, in his irrational activities--I mean, 
we have got to act responsibly, and sometimes when you are in a 
negotiation and you have an irrational and irresponsible 
partner, it ends up changing the dynamic in a way that is not 
to your advantage. Is there any part of this that has to do 
with manipulating the election, in your opinion, and 
potentially causing favor to move toward his brother in the 
election?
    Ambassador Dobbins. He has been pretty consistent in 
everything he has said to everybody he has talked to, that we 
know of, in opposing his brother's candidacy, frankly.
    Senator Corker. Well, is he trying to affect it, in any 
direction?
    Ambassador Dobbins. So, there is obviously those kinds of 
suspicions, particularly on the part of his political 
opponents. He has done nothing to substantiate that, so far, 
that we know of. He seems to be committed to holding the 
election on time. He has encouraged a number of candidates to 
run, not just one. He clearly does not, at this stage, have an 
identified favorite. And he, otherwise, has largely avoided the 
kind of interference that one could legitimately take exception 
to. He expresses a concern, based on his experiences in 2009, 
about our interfering in the election, and, of course, we have 
reassured him on that stage. At one point, after National 
Security Advisor Rice gave him some assurances in that regard, 
he declared himself satisfied and that he would no longer raise 
the issue. But, he does come back to it, as clearly there--you 
know, 2009, from his standpoint, was fairly traumatic, and he 
is not willing to let it go. But, to be fair, at this stage we 
have not seen anything which suggests that this is a ploy to 
either postpone the elections or manipulate their outcome.
    Senator Corker. You know, if you look at our foreign policy 
over the last few years, American foreign policy has really--I 
mean, we have been Iran's best friend, whether intentionally or 
unintentionally, over the last several years. And, you know, 
obviously, the President of Afghanistan entered into this 
agreement with Iran, which really was not much of an agreement. 
I think it is an agreement to agree down the road.
    Ambassador Dobbins. Yes.
    Senator Corker. It was not very specific. But, from his 
manipulative standpoint, what was Karzai attempting to do with 
this agreement he just announced with Iran?
    Ambassador Dobbins. As we understand it, he simply agreed 
to negotiate an agreement. And he has negotiated these kinds of 
agreements with other states in the region. I do not know that 
this--I cannot tell you whether this meeting was set up before 
we had the Loya Jirga and all, his trip to Iran. He has gone 
there once or twice a year since he became President, back in 
2001-2002.
    So, at this point, I would not attach a lot of importance 
to it. Iran is the only country that is encouraging him in his 
current stance. Of course, they are not encouraging him to sign 
it late, they are encouraging him not to sign it at all.
    Senator Corker. Not at all; yes.
    Ambassador Dobbins. You know, their position would be, 
``You do not need the Americans. You know, there are lots of 
other countries of the region that will help you.'' In fact, 
there are no other countries of the region that are offering 
the kinds of assistance that the United States and its NATO 
allies are prepared to commit to, and the other countries of 
the region have made that clear.
    So, is this a gesture designed to demonstrate that he has 
other options? Maybe. But, it is so in keeping with his 
relations with Iran over the last decade that at this point, I 
am not getting too excited about it.
    Senator Corker. Thank you.
    The Chairman. Senator Shaheen.
    Senator Shaheen. Thank you, Mr. Chairman.
    And thank you both for being here.
    And, Ambassador Dobbins, appreciate your service in a 
challenging environment; both of you, actually.
    You mentioned President Karzai's interest in reconciliation 
agreement with the Taliban. And can you talk a little bit more 
about that? What kind of prospects do we think are realistic? 
Why should the Taliban--or, why do we think the Taliban might 
be interested in reaching some sort of an agreement with the 
current Government of Afghanistan or the government of any new 
President, once we begin to draw down our forces and there is 
less of an obstacle to their regaining power?
    Ambassador Dobbins. Well, first, to be fair to President 
Karzai, he is not asking for, or expecting, a peace agreement 
with the Taliban. He simply wants a process to be begun under 
his administration, which is a natural enough desire, and one 
we would be happy to support, if it was realistic. And, in 
fact, we have been trying to promote it for several years, 
since, essentially, 2011, when----
    Senator Shaheen. So, can you also talk about why what he is 
proposing is not realistic.
    Ambassador Dobbins. Well, particularly saying, ``I won't 
sign the BSA until I have formal talks with the Taliban''----
    Senator Shaheen. OK.
    Ambassador Dobbins [continuing]. Does not exactly give the 
Taliban an incentive to talk to him. The Taliban might be 
willing to talk to him if he never signs the BSA, but he is not 
providing them an incentive, with that particular formula. The 
Taliban have been quite consistent, for several years, that 
they are willing to talk to us, they are not willing to talk to 
the Government of Afghanistan. We brought them over that line, 
almost, in June, and then it faltered, not, in fact, as a 
result of the Taliban's bad faith, but for other extraneous 
reasons, and we did not get to that goal line. And I guess I 
would have to say that it is unlikely that they will cross that 
in the next--you know, between now and April. They would not 
seem to have an interest in enhancing the legitimacy of the 
current regime, or, in particular, of the elections that are 
going to produce the next regime. That would seem the logic 
that is consistent with everything they have said, and it is 
consistent with what we know about what they say to themselves 
and what they say to others, privately.
    But, over the longer term, you know, it is our view that if 
we have a BSA, if we have a continuing presence, if the 
international community remains committed, if the international 
financial support for the ANSF and to the Afghan Government as 
a whole is sustained, that the Afghan forces will continue to 
dominate and hold the major population centers, that the 
Taliban will eventually realize that the American departure, if 
you will, has not brought them a breakthrough, that the war 
will continue indefinitely until they reach a settlement. There 
are elements within the Taliban, we think, who are interested 
in talking. I would not say, at this point, they are interested 
in a settlement that we would regard as acceptable, but they 
are interested in talking, and that is a first step.
    So, I think we will continue to support this, in principle; 
we will continue to try to support it, in practice. But, our 
expectations are that something is more likely to take fruit 
once a new government has been elected, which clearly has broad 
support within the country, and the international continued 
support into the coming decade is manifest and obviously going 
to materialize.
    Senator Shaheen. I appreciate that argument. It sounds 
optimistic. However, given our failure, in past years, to have 
any progress----
    Ambassador Dobbins. I am a diplomat; I am optimistic. 
[Laughter.]
    That is what we do.
    Senator Shaheen. Well, and we politicians are usually 
optimistic, too, but----
    Ambassador Dobbins. Right.
    Senator Shaheen. Let me--one piece of that concern about 
what might happen with the Taliban, I think also has to do with 
what happens with the rights of women. And there was an 
article, yesterday in the New York Times, talking about some 
backsliding with respect to women's rights in Afghanistan. And 
notwithstanding all of your positive statistics, Mr. Sampler, I 
think there is real concern that, if we leave, that one of the 
things that will get sacrificed is Afghan women and what their 
future might look like. And so, what assurances might there be 
in BSA that would address that issue?
    Ambassador Dobbins. Well, if we leave entirely, you are 
absolutely right. I mean, I think the country, as a whole, will 
suffer, but probably women will suffer the most. I will let 
Larry talk a bit about, you know, what our programs are, going 
forward, and the degree to which, assuming we have a BSA and a 
continued presence, we are going to be able to administer and 
continue to support the programs in the area of women's rights 
and women's empowerment.
    I think that, you know, the statistics that Larry has 
indicated do have to be contrasted with significant serious 
problems that women still face there. On the other hand--you 
know, so the--Afghanistan has not gone from the 14th century to 
the 21st, but it may have gone from the 14th century to the 
18th or something, in terms of number of women in universities, 
number of women--well, in number of women in Parliament, they 
are in the 21st century, essentially, as--and in some of the 
others--number of women in the workplace, including number of 
women of entrepreneurs--there has been some rather striking 
gains.
    But, perhaps most important is the change in public 
attitudes. If you look at survey results, going back to 2001--
Asia Foundation does one every year, and they have got a new 
one--you know, the number of men who think that women should be 
educated--you know, I think it is now 60-some percent, maybe 
even higher, and I think much higher among people who have girl 
children. The number of men who think that women should be in 
the marketplace, in--you know, in jobs. These trends--although, 
in the last year, they have come down slightly, I think--they 
have been--there has been very significant gains. And it is 
those kinds of changes in attitudes which, over time, will 
sustain the progress that we have made.
    But, Larry, you may want to add something on this.
    Mr. Sampler. Sure. I will second the notion that the 
statistics cited in the New York Times article are grounds for 
concern, but there has been so much progress made that we 
cannot allow it to dissipate.
    The things that strike me as most compelling are the 20 
percent of women--or, the 20 percent of higher education 
students who are now women. We could not have seen that 
statistic when our forces first went into Afghanistan, because 
there were no women who had primary and secondary educations. 
So, the fact that women are entering into the advanced 
education field is promising, not just because it means there 
are women capable of taking senior jobs, but because it means 
they have reached a level where they will not allow themselves 
to be rolled back.
    Another statistic that I think is more relevant than 
perhaps first recognized is that 85 percent of women in 
Afghanistan have access to a cell phone. So, no longer are they 
relegated to a small backroom in a compound, they now are able 
to reach out, they are able to receive news, they are able to 
communicate with each other. On my last visit to Kabul, I 
visited with a group of women who are using SMS technology to 
build their ability to cohesively and coherently campaign, not 
for office, themselves, but for issues among the candidates who 
are running for office. So, they are demonstrating a level of 
sophistication that just has not been there in previous years.
    And I will also mention, and be happy to discuss further if 
you like, we have a program that we plan to implement, if the 
situation allows us to continue engaging, called PROMOTE, which 
is intended to focus primarily on the roughly 200,000 women 
between the ages of 18 and 30 who do have secondary education 
degrees. It also does things for other women who are 
disadvantaged and do not have that level of education, but we 
have made a deliberate policy decision that, in the 
transitional period, we wanted to be able to build on the work 
that has been done and help these 200,000 women find ways to 
gainfully engage themselves in the future of Afghanistan and 
then serve as role models so that the pool of such women will 
continue to grow.
    But, I do think you are right to be concerned about 
rollbacks. Afghanistan is a big country, there are women in all 
kinds of different situations. But, I am also cautiously 
optimistic that, if we are allowed to stay, we will continue to 
see improvements in their status.
    Senator Shaheen. Thank you.
    The Chairman. Senator Kaine.
    Senator Kaine. Thank you, Mr. Chair.
    And, to the witnesses, thank you. We always thank witnesses 
for their service and for appearing, but I want to just kind of 
underline and exclamation-point it today, because we hear these 
statistics, but I think it is really important to step back and 
just talk about how meaningful they are. I mean, just take the 
life-expectancy increase from 42 to 62 in 10 years. There is 
just no precedent for that. There is just--I mean, I do not 
think the United States has ever been involved in anything that 
would have had that kind of impact, a 50-percent expansion of 
the life of a regular person because of the work that we and 
our partners have done, in tandem with the Afghans, on public 
health issues. It is unprecedented. It took 100 years for the 
life expectancy to--in the world--to increase by 30 years, from 
30 to 60, essentially, in the 21st--in the 20th century. But, 
to do 20 years in 10 years, in one decade, is amazing. And that 
has largely been driven by public health for women and 
children. If you drop maternal deaths by 80 percent, if you 
drop infant mortality by 50 percent, that is what drives up 
life expectancy in what we have seen. And then the increases in 
children in school, you know, by, essentially 10 times, so it 
is almost an infinite increase in the number of women in 
school. You have to feel a sense of satisfaction about it. I 
mean, I know it is--and that probably makes it incredibly 
frustration, what you are dealing with now, but those of you 
who have done this--I do not know how this polls with the 
American public, to know that we have helped expand life 
expectancy from 42 to 62 years in Afghanistan with the work 
that we have done, but, in terms of feeling good about what you 
have done, and feeling like you have played an important role 
in a very challenging circumstance, you ought to feel a sense 
of pride. And I think we can feel a sense of pride, you know, 
that we have been willing to stick with it. That does make it 
frustrating.
    You alluded, Ambassador Dobbins, to Iraqi Foreign Minister 
Zabari, and I was him this weekend, and--just to expand on this 
a little bit--I was at a security dialogue in Bahrain, this 
weekend, and--the Iraqi Foreign Minister Zabari was publicly 
saying, ``I have told President Karzai, `Do not bluff the 
Americans. The Americans were willing to stay in Iraq. We told 
them we did not want them. And we wish we had not told them 
that now, 2 years later. We wish the Americans had stayed in 
Iraq.' '' And he has met directly, as you indicated, with 
President Karzai, and he said, ``Do not think you can bluff 
them, and do not be foolish enough to think that, if they 
depart, your life is going to be better. Your life is going to 
be worse.'' And so, that is what makes this moment a 
frustrating one.
    I am kind of curious about your--each of your sense about 
this--the election campaign coming up, and how this issue of 
the BSA could play into it. Assume that Karzai does not change 
his position and he keeps taking the position that, ``I am not 
going to do anything; it is for the next person.'' My initial 
thought was, I would be very worried that the role of the 
United States, or the role of the international partners in the 
BSA, and the economic aid, being part of an election campaign 
would not be a good thing. It would seem like it would be 
preferable to get that resolved and have the election campaign 
proceed with the candidates making their cases with that as 
sort of an issue that has already been resolved. But, I guess I 
kind of have now--I am questioning my own sense about whether 
that would be a good thing or a bad thing.
    If Karzai does not--if he continues in his current 
position, this BSA issue would have to be a major issue that 
the Presidential candidates would be addressing. They are 
addressing it in talk shows in 78 TV channels. How would that 
play out over the course of an election campaign, based on your 
experience? And would that likely be a positive, or would it 
be, as I initially thought, a negative?
    Ambassador Dobbins. I think it would cut two ways. I think, 
first of all, most of the candidates would endorse the BSA and 
promise to sign it. Several have already done so. It is 
possible that all of them would. So, the future of the BSA 
might not, in fact, be an issue in the campaign in the sense 
that all the candidates, or at least all the serious 
candidates, might well converge on a single position.
    I think that the uncertainty attached to the future of the 
international commitment, on the other hand, would tend to, 
as--you know, in threatening environments, people tend to 
converge on their ethnic identities, on strongmen who can 
protect them. It polarizes already divided societies. And so--
and, you know, in the current environment, they have had--this 
is the third Presidential election, and they have had two 
parliamentary elections. And, you know, if you lose the 
election, you just go into comfortable opposition. You still 
have a seat in the Parliament, you still get paid, you are 
still in the patronage world, you are not excluded.
    You know, if Afghanistan's going back to the 1990s, you 
lose an election, you go into exile or get killed. I mean, it 
is a different ball game. It is the winner-takes-all-and-never-
gives-it-up, and the losers, you know, are losers for life, 
unless they spark a revolution. But, you do not want that kind 
of thinking. You want it something in which the losers accept 
the results and say, ``It is okay, we will try again next time, 
and, in the meantime, please make sure that I get my share of 
the patronage, by the way,'' you know, which is what a lot of 
this is all about.
    So, high levels of anxiety, indecision about the future, I 
think could have a very divisive effect, even if the BSA itself 
is not a point of contention. That is what I would be concerned 
with.
    Larry.
    Senator Kaine. Mr. Sampler.
    Mr. Sampler. The only thing I would add is, I think 
President Karzai is demonstrating, in his resistance to sign 
the BSA, the distance between his opinions and public opinion, 
and the other candidates. And it might threaten his role as 
kingmaker. He sees himself very much as the father of the state 
and as a kingmaker in Afghanistan, and I think it would weaken, 
in some ways, the persona of President Karzai as the spokesman 
of the Afghan people.
    But, the thing that concerns me more is the hedging that 
Ambassador Dobbins mentioned earlier. Any uncertainty--and in 
the elections, the uncertainty may be demonstrated by hedging, 
particularly on the provincial elections. Remember, we are 
having two elections in April, both the Presidential and 
provincial. And the provincial elections are where the local 
contesting warlords or powerbrokers go kind of head-to-head to 
represent their communities.
    And I think Ambassador Dobbins is exactly right when he 
says that the population in this area, if there is this 
continued uncertainty, will be inclined to go back to what they 
have always known. And that is not necessarily what we see as 
best for the future of Afghanistan. We want them looking at 
progressive new ways to achieve representation.
    Senator Kaine. And again, I was not sure I completely 
understood this, until your testimony, but it is important for 
us to grapple with it, make sure I get this right.
    The progress of the Bilateral Security Agreement has a 
direct impact also on the promises of economic aid by the--you 
know, the 70-plus nations that have been part of it. It may not 
be the same document, but the absence of a Bilateral Security 
Agreement is going to cause serious concern by any party that 
is thinking, on the international level, about putting economic 
aid into Afghanistan.
    Ambassador Dobbins. I think there is a couple of impacts. 
And, again, I will ask Larry to elaborate. But, you know, one 
is that if we do not have troops, we will not have diplomatic 
representation. It is conceivable, under the worse of 
circumstances, that we could not even have an embassy if the 
country really does, you know, descend into serious civil 
conflict. I mean, we left in 1989. We might face a situation, 
particularly post-Benghazi, when the risk tolerance is so low, 
where you would face a very difficult dilemma. But, let us not 
go there, for the moment.
    Even if you had an embassy, the embassy would largely be 
Kabul-centric. You would not be able to get out into the 
provinces. And so, your ability to oversee and assure that 
Congress and other Parliaments that the money was being 
properly spent would be somewhat circumscribed in a no-BSA 
world.
    But, secondly, you know, you can make an intellectual case 
that, even with no troops, you should still have the same 
amount of nonmilitary assistance, maybe even more.
    Senator Kaine. Right.
    Ambassador Dobbins. But, you tell me. My judgment is: no 
troops, no aid, or almost no aid, that the political support 
for the aid comes from the military presence. The people see, 
``This is important.'' We have got, you know, 5-10,000 troops, 
whatever it is. ``This must still be an important place, and 
that is why we have a big aid program.'' If we do not have any 
troops, I think it is going to be much more difficult, also, 
for you to justify and secure the number of votes that will be 
needed for the civilian aid program. But, you know this more 
than I do.
    Senator Kaine. Mr. Sampler.
    Mr. Sampler. Yes, I have the benefit of executing, within a 
policy envelope dictated by Ambassador Dobbins and Ambassador 
Cunningham and, of course, the Congress and the President, 
within that envelope, if there were no BSA and there were a 
decision to continue the program, it would be incredibly 
challenging. USAID staff around the world are devoted to doing 
the best they can for people in desperate situations, but it 
requires some measure of access, and it requires some measure 
of, not just physical access, but political freedom to 
maneuver. And I think not having a BSA--and I am just 
speculating, but--we would lose that freedom to maneuver, so it 
would be incredibly challenging to try to implement programs in 
that environment.
    Senator Kaine. Thank you.
    And, Mr. Chair--but, one last thing I would just like to 
put on the table. This is really out of an Armed Services 
perspective, than Foreign Relations, but it ties, that we are 
dealing, right now, with whether we will be able to pass an 
NDAA, National Defense Authorizing Act, by the end of 2013. And 
one of the reasons we need to is, there are some expiring 
authorities in that act, that expire on December 31, that, if 
we do not act before the end of the year--two, in particular, 
touch on Afghanistan; there are some others that touch on it 
more generally--but, there is currently programmed into the 
Defense appropriation spending for reintegration activities in 
Afghanistan to reintegrate former Taliban and other members 
back into civil society. That is funded, but that funding 
expires on December 31 unless we pass an NDAA. And, similarly, 
any military member that is engaged in hostile fire is entitled 
to hazardous pay, under the current appropriations bill. That 
authority expires on December 31 if we do not pass an NDAA, and 
that could affect us, as well.
    So, these are important issues, just in the FRC status, but 
there is also another item on the table right now in the Senate 
that has a significant bearing upon the kind of stability 
activities that we want, going forward. And so, it is my hope 
that the body will act with dispatch on that NDAA, as well.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator.
    Let me ask you two final questions. We have touched, here, 
in various iterations, on the election process, which is, I 
think, very important for the future of Afghanistan. And 
everyone who I speak to tells me that security is their major 
concern, or the highest concern with reference to the 
elections. What can be done to address the issue of ghost 
polling stations in insecure areas? And what about the issue of 
security for women's polling stations, which could hinder the 
ability of Afghan women to vote? Could insufficient security at 
polling stations impact the legitimacy of this election for the 
Afghan people?
    Ambassador Dobbins. I had a briefing on election 
preparations, from ISAF when I was there last Thursday, and 
they were pretty positive about the degree to which the Afghans 
are taking responsibility for this, are coordinating 
effectively. They are engaged--the Ministry of Defense, the 
Ministry of Interior are engaged, at quite high levels, with 
the president of the Election Commission. The president of the 
Election Commission is clearly in charge and not hesitant about 
exercising that authority. ISAF will, of course, be prepared, 
within its limited capabilities. I think we will have about 
34,000 troops there--ISAF troops there. I guess that is--the 
figure is American troops in--when the election takes place, in 
April--to provide some of the assets that will be needed--
helicopter lift and a few other things.
    They have plans to secure all the polling stations, 
different levels of commitment, in terms of police and soldiers 
for each polling station, depending on the level of threat. I 
think there are three or four districts where they have decided 
they are simply not going to be able to have polling stations. 
These tend to be quite unpopulated areas, lightly populated 
areas. They seem to be pretty confident that they are going to 
be able to conduct the election in the vast majority of the 
country.
    Larry.
    Mr. Sampler. Yes, Senator, the important metric to keep in 
mind, too, is Afghan expectations. I mean, the Afghans 
understand the problems with women polling stations much better 
than we do. And I think, basing on the 2004 and then the 2009 
elections, we are on track to meet the Afghan expectations.
    That is not to say that we are taking this problem for 
granted. While I cannot assure you that it will be resolved 
completely, I can assure you that the U.S. Government and the 
international community are devoting significant resources 
specifically to empowering women in these elections--as I 
mentioned in my remarks, focusing on ways for women to network 
and campaign together, focusing on training women searchers, 
women polling-station observers, and women polling-station 
workers. Those are things that, through the United Nations 
Development Programme Election Assistance Team and through the 
Independent Election Commission, we actually think we will be 
better off this year than we have been in previous elections.
    The Chairman. Well, I am glad to hear that last statement, 
because I appreciate the nature and understanding of the Afghan 
expectation, but I would hope that our expectation would be, to 
the extent feasible, as high as possible, and that we would be 
working toward that.
    Mr. Sampler. No, Senator, it certainly is. When I mentioned 
resources we have devoted to this, what I meant was that the 
bar that we would accept and that the international community 
would accept is probably not going to be reached, but that 
gives us something to strive for so that the resources and the 
efforts we are putting into it will show some sign of success.
    The Chairman. Let me ask two final questions, then, 
concerning women, a topic on which we have had a fair amount of 
discussion here. We have cited all of the great forward 
movement, which we should all be thankful for and supportive 
of, but it seems to me that we have seen some backsliding in 
this regard, particularly when I see the lower House of the 
Afghan Parliament trying to weaken the landmark Elimination of 
Violence Against Women law, and the U.N. releasing a report 
which indicated that only 7 percent of registered incidents of 
violent crimes against women went through a judicial process 
using that law. So, what steps does the Department intend to 
make to relay to the Afghan Government that we are looking for 
a vigorous implementation of the law, post-2014?
    Ambassador Dobbins. Well, we, of course, work directly with 
the Parliament on legislation of this matter, and bring our 
concerns directly to the attention of individual 
parliamentarians. I believe that they have not succeeded in 
weakening the law you talked about, at this point, although the 
threat to do so is there, and it is still, as I recall, 
enforced by decree rather than by legislation.
    The Chairman. Well, even without passing the weakened 
legislation, the fact is that only 7 percent of violent crime 
goes through a process envisioned by the law. I am just 
wondering--you know, laws are great but not unless we actually 
enforce them. So I hope that, with all the resources and 
efforts we are putting in here, that we are making it clear, as 
part of our continuing relationship, that the enforcement of 
the law is critically important.
    Ambassador Dobbins. Right, absolutely. And clearly we have 
programs designed to support both the effectiveness of the 
police and judiciary, in general, as well as in this specific 
area. I do not know what proportion of violent crimes, in 
general, end up going through the judiciary in Afghanistan. It 
may not be any higher than the figure you cited for----
    The Chairman. Well, we would be interested in getting 
feedback from you on that.
    Finally, for Mr. Sampler, I understand that AID uses third-
party monitoring techniques in many countries in the world, and 
sometimes they are the primary means of evaluating a program. 
But, given the environment in Afghanistan, there is a lot of 
skepticism about relying on third-party monitoring. Can you 
discuss, to what extent you are using that type of monitoring 
and evaluation in Afghanistan, how they are being implemented, 
and--I think this is an area that the SIGAR suggested there 
will be an audit of. So, I would like to get a preview of that 
before I see the SIGAR's report.
    Mr. Sampler. Certainly, Senator. Would you mind if I added 
something onto the Violence Against Women issue before I enter 
into that?
    The Chairman. Not at all.
    Mr. Sampler. The Elimination of Violence Against Women law 
is one of the key elements of the Tokyo Mutual Accountability 
Framework. That is a multilateral international donor 
commitment to the Government of Afghanistan that, as they 
demonstrate progress on several hard deliverables, we would 
reciprocate and recognize that. The passage of the law and the 
reporting, by province, of violence against women, are two of 
the hard deliverables that they have not yet met. The United 
States, bilaterally, has attached incentive funding to those 
two actions, and there is money in the pot that will not go to 
the Government of Afghanistan unless and until they accomplish 
those. And in my last meeting with Minister of Finance 
Zakhilwal, he is very keen to see these funds released. And 
Finance Minister Zakhilwal agreed that he would begin to use 
his influence within the Government of Afghanistan to help 
these things move forward. And what it does is, it gives the 
ministers and the Government of Afghanistan some political 
capital and an incentive to literally do things that are 
politically hard to do. So, we are focused on that, and we are 
making sure that the Afghans understand our insistence on 
progress.
    But, if I could note--I mean, again, having worked there 
since 2002, I am thrilled that there is an elected Government 
in Afghanistan that is debating laws. We may not like, right 
now, where they are in the debate, but at least we now have 
partners that we can engage with in a normal Westphalian-sort-
of-state way and to influence, because we did not have that for 
the longest time.
    With respect to your question about third-party monitoring, 
the first point that I would make is, unfortunately, third-
party monitoring has entered the arena of public thought with a 
very heavy negative connotation. Third-party monitoring is what 
we do all over the world. I am an electrical engineer by 
training in university, and studied physics. I would not be 
able to go out to a health program in Afghanistan, for example, 
as a U.S. Government direct hire and provide USAID meaningful 
information on the successful implementation of that program. 
So, what we do, whether it is Afghanistan or Honduras or other 
hard places like Pakistan and South Sudan, is, we hire 
competent professionals who go and do that work for us. So, in 
every case around the world, I literally do not believe there 
is a single mission in the world that would not use some form 
of third-party monitoring.
    Having said that, Afghanistan is different, both with 
respect to scale of the problem, the complexity of the problem, 
and the security situation and the restricted movements, 
because what we do have in Honduras is the ability for a U.S. 
Government direct hire to jump in a car and ride out and kick 
the tires on a project.
    The Chairman. Right. Well, I am not against all third-party 
monitoring. That is not what I suggested in my question. My----
    Mr. Sampler. I am sorry.
    The Chairman [continuing]. Question concerns, specifically, 
third-party monitoring as it relates to an environment such as 
Afghanistan.
    Mr. Sampler. Right.
    The Chairman. To what degree are you doing it in 
Afghanistan, and what are the challenges you face, or are you 
doing more direct monitoring, without a third party, through 
AID?
    Mr. Sampler. No, what we have done is--our contract 
officers, who hold the warrant to approve or disprove payments, 
have to have a certain amount of information about the program. 
And how we provide them that information is, in Afghanistan, 
something of an adventure and something of a challenge. What we 
have come up with is multiple layers that provide that 
information. On the one hand, partners self-report; they have 
quarterly and even, some case, weekly reporting requirements. 
That information goes into USAID's Afghanistan Info database. 
We hire third-party monitors, and we correlate the information 
that third-party monitors provide against that which the 
partners have provided. We have, in the past, used ISAF to go 
out and validate that a particular project is ongoing, and even 
to provide photographic evidence. We have used technology, such 
as overflights with photographs, of large agricultural 
projects. Flying a plane over and taking a photograph is the 
best way, sometimes, to measure progress.
    And then, for other programs, social programs, such as 
making sure that schoolteachers get paid out in these remote 
districts, we are using SMS technology, where we actually 
interrogate the SMS network of schoolteachers and say, ``Did 
you get your paycheck?'' And then we get feedback in that way 
from the teachers, themselves, saying they did or did not get 
paid.
    So, the answer to your question is, really, we are being 
innovative and creative in Afghanistan in ways we have not 
necessarily been forced to innovate or create in other 
countries, but we are devoted to making sure that that 
contracting officer, who, to put you in his or her shoes, is 
probably a 28- to 34-year-old young professional with USAID 
with enormous responsibility to say, ``Pay the bill'' or ``Do 
not pay the bill.'' We want them to have all the information 
they need. And if ever a contract officer raises her hand or 
his hand and says, ``Wait a minute, I am not confident that I 
have got what I need,'' we stop that program.
    The Chairman. Well, I am going to cease here, but my 
concern is, for us to continue to be supportive of the type of 
money that we are pumping into a country like Afghanistan, with 
all the challenges we have already talked about, we are going 
to need to have some sense of our ability to assess what we are 
succeeding at, what our delivery system is doing, what the 
effects are, exactly. Because when we have to respond to the 
American taxpayer, they are going to want to know. And 
inevitably, when we get into an area--although I think AID does 
a pretty good job across the spectrum beyond Afghanistan--but, 
inevitably, when we read a story from a report like the 
SIGAR's, that suggests that we are just missing the ball--and I 
am saying we will see that--it is a real consequence to the 
policy opportunities here, so that is why I actually want to 
pursue this different hearing in a broader context with AID, in 
general. I am a big supporter of AID, but we also have to have 
accountability to be able to continue to have that flow of 
support, whether in Afghanistan or beyond.
    Now, I have gotten my questions in that I wanted to ask, 
and I have bought time for Senator Flake to get here. So, with 
that--oh, and Senator McCain--and so, with that, Senator Flake.
    Senator Flake. All right, thank you.
    I appreciate the testimony. I am sorry I was not here to 
hear it, but I have reviewed some of it.
    Ambassador Dobbins, you have talked about, in your 
testimony, that Russia and China, India, and Pakistan have all 
personally urged Karzai to conclude the BSA, because they 
recognize that instability is not to their benefit, either. 
What assistance are those countries planning to provide over 
the course of the agreement, over the next 10 years? Are we the 
only ones on the hook for assistance, moving ahead, both 
military and economic and otherwise?
    Ambassador Dobbins. No, Senator. I mean, they vary. In 
terms of assistance levels, India has a pretty substantial 
assistance program, substantial for, itself, a developing 
country. China has some significant investments in Afghanistan. 
There are about 70 countries that are part of either the ISAF 
coalition or--such as Japan, for instance--provide significant 
economic assistance. And, as I said in--earlier--one of the 
reasons that we believe that the Bilateral Security Agreement 
needs to be concluded as soon as possible is so that that 
coalition, a really substantial coalition of substantial 
countries who are making substantial commitments, commitments 
to pay the Afghan Armed Forces--I think we anticipate that 
about 20 percent would come from other allies--it does not 
begin to deteriorate, that countries do not begin dropping out, 
that they do not use the excuse that, ``The Afghans do not seem 
to want us, the Afghan President seems ambivalent about whether 
we should stay,'' to not fulfill commitments that they have 
made over the years, and not to continue to participate. But, 
Larry can probably tell you what proportion of economic 
assistance comes from non-American countries, but if you 
include the international financial institutions, I think we 
are well less than half.
    Senator Flake. All right. Well, Mr. Sampler, let me kind of 
go along that route. Ten years from now, why should we have any 
more confidence that the economy will be able to sustain the 
government any more than it is now? I realize you need 
security, and we know those arguments, certainly. But, when you 
look at Afghanistan right now, you are hard-pressed to look at 
an area or a sector of the economy that will step up, in the 
next 10 years, to actually replace some of the revenue that we 
are providing now. Why should we feel any differently?
    Mr. Sampler. Senator, I will give you two examples, a 
specific and more general.
    The specific example is the proliferation of small and 
medium enterprises in Afghanistan. And I wish I could take full 
credit for this, but I have to say, this is just ordinary 
decent capitalistic activity. As the population in Afghanistan 
becomes more educated, and as they move from the rural to the 
urban centers, there are markets that were not there before. 
And it has been our experience that small and medium 
enterprises generate a lot of the economic activity that will 
sustain GDP.
    And there are sectors in Afghanistan, if we could take you 
to Herat, where the mining industry is actually doing quite 
well, and Herati marble now is being exported to Italy; up in 
Mazar-e Sharif, there are value chains around some of the 
agricultural sectors, that the north has a strength in, that 
they are preparing and then shipping, to the Central Asian 
states, some of their agricultural products.
    The general answer I will give you is: we, just last month, 
launched a new program, called the Afghanistan Trade and 
Revenue Program, and it is focusing on generating trade by 
working in the region, not just in Afghanistan--to your point, 
Mr. Chairman, about regional integration--it works in the 
region to lower real and perceived tariffs to regional trade. 
So, we are trying to find ways for Afghans, not just to export 
their apples to Pakistan, where they turn them into juice and 
ship them back, but to help the Afghans build a value chain so 
that they are packaging their own juice and then shipping it 
across the region. It also has a component which is increasing 
revenue, and that is to help the customs officials at the 
borders and the Government of Afghanistan collect the revenues 
and then put them into their coffers.
    And one of the points that I focus on with Minister 
Zakhilwal: If Afghanistan is able to achieve WTO accession in 
the next couple of years--and this program will support that--
WTO accession has, historically, in the situation of countries 
like Afghanistan, generated a 4- to 5-percent increase in GDP 
for the first 5 years, so a net gain of GDP of 20 percent 
before it flattens out. That will not completely make up for 
the GDP that has been lost by the military drawdown, but it 
will help to offset it, and it will put Afghanistan back on a 
more stable glidepath of what we would consider a transitioning 
or developing country.
    Senator Flake. All due respect, that was--you are talking 
about--and I have been there, and I recognize some of that is 
going on--that is on the very margins, in terms of what is 
going to be needed to sustain government. And it is a pretty 
bleak picture, in my view.
    We did a study, when I was in the House on one of the 
committees, about the trucking contracts that are currently in 
force, moving goods between military bases, and we contract 
with local Afghans to do that. I think, at least count, that 
was about 20 percent of the Afghan economy, just trucking 
contracts that we are paying for to move goods around.
    When that goes away, it just tells you how much--it is an 
indication to me of how much the economy just relies so much by 
our presence. And that is why it is still so startling that 
Karzai is resisting this BSA. So, I do not pretend to 
understand that, but I just think we have spent a lot of money 
there, obviously--$683 billion, total, in Afghanistan, and in 
military and economic aid, and that for a promise that some of 
this might hold up after we withdraw. It is a tough pill to 
swallow for those of us who are going to be asked to authorize 
and appropriate additional funding over the next 10 years. And 
so, I just want some sense of why we should think that, 10 
years from now, we will be in a better position than we are 
right now, and if--or we will be having this same argument, 10 
years from now, and being asked to extend another agreement 
that will provide a lot more funding. Can you give me any more 
comfort than----
    Mr. Sampler. Senator, I mean, 10 years is a good lens. I 
mean, I think, 10 years from now, we will begin to see some 
return on the investments in the mineral wealth of Afghanistan. 
That is something that has a fairly long development period. As 
Ambassador Dobbins was saying, one of the consequences of the 
hedging that goes on in Afghanistan because of the lack of a 
BSA and the lack of clarity, going forward, is the development 
of the tenders, and the development of the ministerial capacity 
to let tenders for the mineral wealth of Afghanistan, is 
challenged. But, if we can get those tenders out, then 7 to 8 
to 10 years after those tenders are let, Afghanistan should be 
able to see a return on that investment.
    Afghanistan is not, in 10 years, going to be a Sweden; we 
are hoping for a Bangladesh. The focus is on the lines of 
governance that will allow Afghanistan, in modest ways, to 
incrementally improve. And 10 years is a good first step. 
Development workers typically think it takes 10 years to get to 
the next stage of development. So, I do not mean to be overly 
optimistic, but, when I work with my staff, one of our founding 
principles is that Afghanistan will survive; what it will look 
like 10 years from now is largely up to the Afghans to 
determine, and we want to make sure that we are giving them the 
kinds of assistance and the kinds of technical support that 
they need, that that is as positive a scenario as it can be in 
10 years.
    Ambassador Dobbins. Let me just add----
    Senator Flake. Thank you.
    Ambassador Dobbins [continuing]. Briefly, Senator, that a 
lot will depend on, you know, whether Afghanistan faces the 
same security challenge 10 years from now that it faces today. 
The largest driver of the Afghan budget is the security costs, 
and the largest focus of American assistance is helping pay 
some of those security costs.
    We do have programs across the region to increase regional 
integration. To the extent these countries become tied together 
economically--and they are becoming tied together more 
economically--their incentives to interfere, to allow their 
territory to be used to destabilize Afghanistan, which has 
always been the weakest country of the region, the one most 
susceptible to outside interference--will diminish and 
Afghanistan will face less of a security challenge.
    Probably more than anything else, this will depend on 
whether Pakistan, over the next decade, is able to gain control 
of its own territory, particularly its border regions, and stop 
allowing that territory to be used to destabilize Afghanistan.
    If those things happen--and I think 10 years is a period 
during which it is reasonable to hope they will happen, it is 
reasonable to plan on them happening--then I think 
Afghanistan's capacity to otherwise fund its own government 
operations may be--you know, it may be--they may be capable, 
within their own resources, at that point.
    Senator Flake. Okay.
    Thank you, Mr. Chairman.
    The Chairman. Senator McCain.
    Senator McCain. Well, thank you, Mr. Chairman, and thank 
the witnesses.
    If I heard your last comment right, you think that they 
will be able to fund their own government and functions of 
government, Ambassador?
    Ambassador Dobbins. Within a decade?
    Senator McCain. Yes.
    Ambassador Dobbins. Assuming that they are not facing an 
insurgency; yes.
    Senator McCain. Is not about 95 percent of their economy, 
right now, USAID assistance funding?
    Ambassador Dobbins. Well no, it is not that high. It is 
certainly significant; and it is not just United States, of 
course.
    Senator McCain. Of course. But, it is foreign aid, it is 
not their own economy. Where do they rank--where does 
Afghanistan rank in the world estimate of corruption? I believe 
it is at the bottom.
    Ambassador Dobbins. It is. Well, I think there are two 
other countries, but yes.
    Senator McCain. Two other countries. I understand and have 
paid close attention to the problem we have with President 
Karzai on the signing of the BCA--excuse me--the strategic--the 
BSA. Have we announced what size of the force we are going to 
leave behind, yet?
    Ambassador Dobbins. No. We had intended, assuming that the 
BSA was concluded this year, to announce that early next year.
    Senator McCain. Why would we not want to define, for the 
Afghan people and maybe for the Congress, what those roles and 
missions would be for 2014 and even beyond, so that they would 
know, maybe Congress might want to know? And are we not seeing 
a repeat of what happened in Iraq? And your and my version of 
what happened in Iraq may differ. But, since I was there on the 
ground, I will challenge any other interpretation than what 
happened with Senator Graham and Senator Lieberman and I when 
Maliki had agreed to have a U.S. troop presence, and we never, 
ever gave them a decent number until, in the words of General 
Dempsey, it cascaded down to 3,500, and then the Iraqis decided 
it was not worth it, and now we are seeing everything unravel 
in Iraq. Why in the world would we not tell the Afghans and the 
American people what size of residual force we want there and 
what their roles and missions would be?
    Ambassador Dobbins. Well, I think that is a good point, 
Senator. I am not suggesting we should not. Frankly, President 
Karzai's unwillingness to sign an agreement that he--the text 
of which is fully agreed, and which he asked the Loya Jirga to 
endorse, is a new problem. In other words, we did not 
anticipate that he was going to ask the Loya Jirga to endorse 
this and then, at the conclusion of that meeting, announce that 
he was not going to sign it until the end of his term of 
office. So, we are grappling with that. Our assumption had been 
that this was, in fact, going to be signed by the end of the 
year, at which point, within a few weeks, we could make the 
announcement you have suggested. We are now grappling with the 
uncertainty, the possibility that it may take a lot longer to 
get this agreement concluded. As I said in my opening 
testimony, I believe, based on my own visit there, that there 
is no serious doubt that the Afghan people do want us and that 
we will eventually get a BSA, but we may not get it within the 
timeframe we anticipate, in which case, we will have to face 
exactly the issue that you have raised, and make a decision.
    Senator McCain. We should face the issue before, so that 
the Afghan people know what our commitment is, Ambassador. And, 
by not doing so, you are making a very, very serious mistake 
and a repeat of the movie we saw in Iraq. And so, I understand 
why, to some degree--not very much, but to some degree--why 
President Karzai is waffling around. Because he does not know 
what our commitment is. And why we will not announce what our 
commitment would be is--defies imagination. And there are many 
of us that know that if you get below a certain number, then 
that force spends its time defending itself. And for months and 
months and months, some of us have been arguing strenuously, 
say, ``Tell them what our commitment is. Tell them what the 
roles and missions are,'' and maybe Karzai will not be quite as 
paranoid as he is today.
    So, I blame Karzai for a lot of it, but I can also, from 
his viewpoint, see that, since we have not even told him what 
our commitment and roles and missions are, that he would be, at 
least to some degree, uncertain of the degree of our 
commitment.
    Is it true that Karzai recently agreed to a long-term 
friendship and cooperation plan with the Iranian Government?
    Ambassador Dobbins. Well, let me address the first part of 
your question first, and then I will come to that.
    I do not know that you and I have any disagreement on the 
utility of announcing the size and scope of our presence. So, I 
am not taking issue with you on----
    Senator McCain. Then one would wonder why the 
administration has not.
    Ambassador Dobbins. What I would say is that President 
Karzai has shown absolutely no interest in the size of the 
forces, or indeed the scale of our aid budget. He----
    Senator McCain. Well, he shows an interest, in my 
conversations with him. He showed one that we wanted to know, 
in my conversations with him. Maybe he has not with you, but he 
certainly has with me. But, go ahead.
    Ambassador Dobbins [continuing]. He certainly knows--I 
mean, the Bilateral Security Agreement defines, in excruciating 
detail, the functions that our forces would undertake. What he 
does not know, but has not pressed us on, is the exact scale of 
that commitment; that is, how many troops would be involved. 
So, I can attribute a number of explanations to his behavior; 
some are consistent with what he has said, some are just 
speculation. I do not think that our failure to specify a 
number actually is a factor in his decisionmaking, which is not 
to say that I disagree with your more general point on that.
    On the Iran--what--as I understand it--all he and the 
Iranians have agreed is that they should negotiate such an 
agreement, which has yet to be--there is not even a text of it, 
in other words. I mean, it is just, ``Yes, let us negotiate 
such an agreement.'' He has negotiated these with a number of 
the neighbors. He visits Tehran once or twice a year, ever 
since he came into office. He is going on to visit India, a 
much more important relationship for him, in 3 days. He is 
visiting Turkey shortly thereafter. So, as I said earlier in 
the testimony, although I am not particularly happy about this, 
I would not attach too much importance to it.
    Senator McCain. Well, I thank you.
    And, Mr. Chairman, if you would indulge me--you may have 
already said it, responded--the status of negotiations with the 
Taliban?
    Ambassador Dobbins. There is nothing, really, new to 
report. I said that President Karzai has articulated two 
conditions for signing the BSA, both of which seem, to us, to 
be somewhat unrealistic. One is that we somehow produce a 
formal, open, publicly acknowledged Afghan Government/Taliban 
peace process before the BSA has concluded, to which I have 
responded that I do not see that the Taliban have much 
incentive to facilitate signature of the BSA, and so I was not 
sure that articulating that linkage advanced his desire; nor 
was it, in my judgment, likely that we would be able to do that 
in the few months that remain before the elections, although we 
support, in principle and in practice, a reconciliation 
process, and have spent several years trying to persuade the 
Taliban to talk to the Afghan Government. And so, we are 
perfectly prepared to continue.
    He has also asked for a cessation of all U.S. and NATO 
military operations involving the entry into Afghan homes, even 
when accompanied by Afghan forces, and even when led by Afghan 
forces, which, you know, almost amounts to a cease-fire, you 
know, a one-sided cease-fire, in terms of the effort to deal 
with this ongoing threat. Now, we have provided assurances, in 
the BSA and in a separate assurance from President Obama, that 
we will take seriously the sanctity of Afghan homes, as we do 
homes in the United States, that we recognize the importance of 
both privacy and safety in one's home. And we are prepared to 
continue to do that, and to intensify it in the future. But, so 
far, that has not satisfied him.
    Senator McCain. Thank you, Mr. Chairman.
    The Chairman. Senator Markey.
    Senator Markey. Thank you, Mr. Chairman, very much.
    Thank you both for your service.
    Pakistan. As we draw down in Afghanistan, what pressures 
could that put on Pakistan, in terms of instability or breeding 
grounds for insurgent groups?
    Ambassador Dobbins. I think a lot will depend on how this 
goes. I mean, if it goes as we hope it will go, with a 
continued American and NATO military commitment, with continued 
substantial assistance to Afghanistan, and--on the one hand--
and, on the other hand, continued improvement in the Pakistan/
Afghan relationship--and there has been a marked improvement 
over the last 2 or 3 months--then I think it will become 
somewhat easier for Pakistan to begin to stabilize its own 
border regions.
    You can easily have a different analysis, in which we 
withdraw more comprehensively, there is less or none of a NATO 
military advise-and-assist presence, international assistance 
begins to diminish, all of Afghanistan's neighbors, not just 
Pakistan, begin the typical hedging behavior of all--looking 
for factions to support, and the factions, the warlords, the 
regional commanders, the powerbrokers, begin to maneuver, not 
within a constitutional system of checks and balances and--you 
go into opposition but you get a chance to come back 4 years 
from now, but in a much more--you know, a much more brutal 
arena. Under those situations, I think it is quite possible 
that the border regions of Afghanistan would begin to be even 
more of a safe haven for anti-Pakistani terrorists than they 
already are. And, of course, the regions of Pakistan become an 
even greater safe haven for terrorists and extremists that want 
to----
    Senator Markey. And so, are we taking steps to ensure that 
there is security along the Afghanistan-Pakistan border as we 
begin to draw down? What are those steps--are there contingency 
plans that we are putting together? And I would add that there 
could be a refugee exodus out of Afghanistan into Pakistan that 
could have a destabilizing impact, as well. Could you deal with 
those issues relating to security along the border?
    Ambassador Dobbins. The--I mean, our primary method of 
dealing this, for the moment, is to try to conclude the 
Bilateral Security Agreement, provide the Afghans an assurance 
that the international commitment is going to be sustained 
beyond 2014, and to be able to conduct an election campaign and 
the selection of a new President within a security blanket, if 
you will, that the future is not going to be turned to the 
1990s, but is going to be continuity of the progress that they 
have made over the last decade.
    We do not want to see an outflow of refugees. Millions have 
come back over the last decade, and we do not want to see that 
flow reversed.
    We have worked carefully with the new Pakistan Government 
to try to promote better relations between Pakistan and 
Afghanistan. Part of what Pakistan is proposing is a much more 
substantial cooperative border regime. The Afghans, of course, 
do not accept it as a legitimate border, but essentially a 
regime, along that line, which would better regulate the some-
60,000 people who go back and forth every day across that line. 
The Pakistanis seem serious about moving toward a more 
substantial regime, more checkpoints, more biometric data to 
make sure you know who is moving back and forth, that kind of 
thing. It is going to take time to put those kinds of things in 
place, but they have at least agreed to begin talking about 
that.
    Clearly, our ability to directly impact security on the 
border is going to be somewhat diminished as our own forces go 
down, but part of the residual force we are talking about is a 
small counterterrorism force which would operate almost 
exclusively partnered with Afghan forces and would be directed 
very much at the insecurity and militancy that grows up in the 
border region.
    Senator Markey. If I can move over to Iran--again, in this 
meeting with Rouhani and Karzai, reportedly they talked about 
an economic, security, and political strengthening of their 
relationship. Especially as we pull back, it does create 
opportunities for Iran to move in.
    What is it that you are concerned about, if anything, in a 
relationship between Iran and Afghanistan becoming closer? 
Where might our interests actually coincide with Iran--and 
where might they diverge with Iran, in terms of what their 
objectives might be in the next several years?
    Ambassador Dobbins. Well, that is a good question. I mean, 
Iran has always had a pretty substantial aid program for 
Afghanistan. I remember, in the first Donor Conference, in 
2002, the Iranian commitment was actually larger than the 
American commitment. They have also had a positive relationship 
with Karzai, even under the worst of the Iranian governments. 
They, on the other hand, have also provided arms and money to 
the Taliban--in small measure, nothing like what flows from the 
Pakistan side. But, they have played both sides of the fence.
    They collaborated with the United States, back in 2001, 
after 
9/11, because they did not like the Taliban. They almost went 
to war with the Taliban. The Taliban were suppressing the Shia 
minority in Afghanistan. They had something like 4 million 
refugees that they wanted to go back into Afghanistan; I think 
about 2 million of them have gone back, so far. And they have a 
big drug problem flowing out of Afghanistan. So, the driver of 
their continuing to flirt with the Taliban is that it is a way 
of demonstrating to the United States that they would have 
avenues to make our life miserable if we got into a military 
conflict with them. If that becomes less difficult, their 
interests in Afghanistan are likely to coincide more with ours.
    Senator Markey. And has Iran in any way tried to undermine 
this bilateral security agreement?
    Ambassador Dobbins. Yes.
    Senator Markey. They have.
    Ambassador Dobbins. They have argued against it. And they 
are the only country that argues----
    Senator Markey. And they are arguing against it because--
what would be their response to it, if it is finalized? And how 
do we expect them to respond to an agreement that they do not 
agree with?
    Ambassador Dobbins. They will live with it if it gets--if 
and when; because I think it will be concluded--their argument 
against it is, they are against foreign troops in the region. 
They had the same position with respect to Iraq, of course. And 
indeed, they wish U.S. troops would leave the Persian Gulf. So, 
it is not exclusive to Afghanistan. And the obvious reason is, 
they do not want to be susceptible to American pressures on any 
of their borders. They probably exaggerate the degree to which 
Afghan bases are important to us for that particular purpose.
    So, on the other hand, you know, as I have said, they have 
always had a positive relationship with Karzai, a significant 
aid program. Karzai goes there once or twice a year. He has 
bilateral agreements, of the sort he is probably talking about 
with Iran, with a number of other countries of the region. So, 
I do not know that this is a particular break from the pattern 
of Karzai's relations with Iran. And, of course, we are not 
leaving unless we are forced to. We intend to stay and have a 
significant relationship, including a significant defense 
relationship with Afghanistan for a number of years to come.
    Senator Markey. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Senator Rubio will be the final member for 
questions.
    Senator Rubio. Thank you. And I will be brief. I know most 
of these questions have been asked and answered.
    Just as an aside, I get a lot of questions from 
constituents. They read the news about Karzai's behavior, they 
see the sacrifices that Americans have made to bring freedom 
and stability to Afghanistan, and they ask, ``Why are we 
involved? Why don't we just pick up and go?'' I think you have 
probably answered this question, certainly in your opening 
statement, but just to confirm it.
    If the United States were to pursue the zero option, 
completely withdraw, or even if we were to withdraw, 
potentially, to a level below a certain number, would it be 
safe to say that, between 18 and 24 months, we would see, 
potentially, all-out civil war and perhaps even the return of 
al-Qaeda and the Taliban to Afghanistan? Is that a fair 
statement?
    Ambassador Dobbins. I think that would be a real risk. I 
think Afghanistan has come a long way. Its armed forces have 
come a long way, but they continue to be dependent on the 
United States and United States allies for training, advice, 
assistance, some enabling capabilities, and, in particular, for 
financing. And Afghanistan, as a whole, is a weak state 
surrounded by more powerful states. If those states perceived 
that the international community was eliminating or reducing 
dramatically its commitment to Afghanistan, they would begin to 
change their own behavior. At the moment--with the exception of 
Iran--Russia, India, Pakistan, and China have all argued with 
Karzai that he ought to sign the BSA.
    So, at the moment, we have the international--the regional 
consensus is reinforcing stability in Afghanistan. That could 
change. Afghans would become more uncertain, more anxious. In 
those kinds of situations, societies generally polarize around 
powerful figures, around ethnic leaders, warlords, military 
commanders, people who they think can protect them, and you 
would begin to see the kind of fragmentation that are you are 
seeing already in Iraq.
    Senator Rubio. But, so far, it has not been signed. We have 
given them--the administration's position is, if it is not 
signed by the end of 2013, they will have to begin planning for 
the zero option. If, in fact, Karzai does not sign, or decides 
to leave it for the next President to sign, what are our 
options, at that point, if, in fact, it is not signed or agreed 
to by either Karzai or his successor?
    Ambassador Dobbins. Well, you know, I think--and, I think, 
in answering your constituents, you should argue that we cannot 
let one man be the bellwether for Afghanistan's attitudes 
toward the United States or desire to have us continue the 
commitment. It is clear, after the Loya Jirga in which 2,500 
influential Afghans from all over the country strongly and 
overwhelmingly endorsed conclusion of the Bilateral Security 
Agreement and asked to be concluded by the end of the year, 
that there is no serious doubt that the Afghans want us to 
stay. Having just come back from a visit there last week, I do 
not think there is any serious doubt that a bilateral 
securement will eventually be concluded. There are a lot of 
costs for delaying it until next summer, for instance, and we 
are not advocating that. We are, in fact, underlining the risks 
and the costs of delay, in terms of diminished international 
support and increased anxiety and fragmentation among the 
Afghan people.
    We have said that, in the absence of an agreement by the 
end of the year, we will have to begin planning for not having 
an agreement. But, as I said in my written testimony, plans are 
not decisions, and we are not about to make a decision----
    Senator Rubio. Well, Secretary Kerry has said that someone 
other than Karzai could sign on behalf of the Afghans. Is this 
the current position of the administration?
    Ambassador Dobbins. Say that again, sir.
    Senator Rubio. Secretary Kerry has said that someone other 
than Karzai could, potentially, sign on behalf of the Afghans. 
Is that him speculating or is that the official position of the 
administration?
    Ambassador Dobbins. Yes, I think that may have been 
overinterpreted. Of course, Karzai can designate anybody he 
wants to sign the agreement. We routinely have our Ambassadors 
sign these agreements, or our Secretary of State. If Karzai did 
not want to personally sign it, he could ask somebody else, but 
it could only be signed under his authority and at his 
direction, as long as he is President.
    So, as I said, I think it will eventually be concluded, but 
there will be a cost to delaying. And the cost will be a cost 
to the Afghan people.
    Senator Rubio. Well, my last question is--and this was 
asked by Senator McCain, about the prospects of talks with the 
Taliban. I know that is one of the conditions that Karzai has 
now raised. Do we have an official list of assurances that we 
are asking for before we would even consider resuming talks 
with the Taliban?
    Ambassador Dobbins. We have no preconditions for talks with 
the Taliban. We do have a set of conditions for any agreement 
that we would enter into or that we would endorse. And those 
conditions are that they have to lay down their arms, accept 
the Afghan Constitution. So, you know, we, in June of this 
year, were about to open talks with the Taliban, and we would 
be prepared to do so again, but only if they are paralleled by 
a negotiation between the Taliban and the Afghan Government. I 
mean, we are not going to try to negotiate peace in 
Afghanistan. That is something the Afghans have to do. And the 
Taliban have refused to engage the Afghan Government. And as 
long as they continue that stance, it is hard to make much 
progress.
    The Chairman. Well, thank you both for your testimony. I 
think it is probably the judgment or views of, if not all, then 
the majority of the members of the committee, that the sooner 
that President Karzai executes this agreement, the better his 
standing will be in the Senate, as well as the better our 
ability to help Afghanistan enter its new chapter with success. 
And I hope that, if those 70 
or whatever number of stations in Afghanistan have been 
reviewing or will report on this hearing, that they take away 
that message. The administration seems to have an enormous 
amount of patience. I am not quite sure that the Senate does as 
well.
    So, I look forward to the execution of the agreement as 
quickly as possible, on behalf of the future Afghanistan, and 
the sacrifices that have been made by Americans, both in lives 
and national treasure.
    With the thanks of the committee for your testimony, the 
record will remain open until the close of business on 
Thursday, and this hearing is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


    Responses of Special Representative James Dobbins to Questions 
                  Submitted by Senator Robert Menendez

    Question #1. The November 2013 U.N. Office on Drugs and Crime 
(UNODC) report shows that poppy cultivation in Afghanistan has reached 
a record high this year. Overall potential production of opium 
increased by 49 percent and 19 of the country's 34 provinces are now 
poppy growers, two more than last year.
    The November 2013 ``Report on Progress Toward Security and 
Stability in Afghanistan'' released by the Department of Defense was 
very critical of U.S. efforts to eradicate poppy, particularly the 
Governor Led Eradication (GLE) program, which provides development 
grants based on successful eradication efforts.
    Taken together, the DOD and UNODC reports reflect an apparent 
growing lack of will on the part of the Afghan Government to seriously 
address this issue, a paramount concern moving forward. There does not 
appear to be a serious effort by the Afghan Government to pursue drug 
traffickers, especially as we move into the transition year.

  <diamond> Please list the concrete results in counternarcotics 
        programming that we realistically expect to achieve in 2014 and 
        2015? Please focus on the anticipated results of this 
        programming, not program activities.

    Answer. We are disappointed that UNODC has reported that 
cultivation reached an all-time high in 2013. The U.S. Government has 
recently published its poppy cultivation and opium production estimates 
for 2013 and did not find that 2013 was a record year for cultivation. 
Rather, our estimates reflect a 10-percent increase in cultivation--or 
198,000 hectares under cultivation in 2013. This of course is serious 
enough cause for concern.
    However, cultivation is not the only indicator of progress and 
commitment on counternarcotics. The Department of State, Department of 
Defense, and Drug Enforcement Agency have partnered with the Afghan 
Government in making strides in several key elements of the U.S. and 
Afghan counternarcotics strategies. Afghanistan now has an effective 
counternarcotics police force dedicated to interdicting drug networks 
and arresting traffickers. The Afghan Government's central 
counternarcotics court effectively processes hundreds of significant 
counternarcotics cases each year. Within the last 12 months, the court 
has convicted major narcotics criminals, including U.S.-designated drug 
kingpin Haji Lal Jan and sentenced him to 15 years in prison. Through 
programs managed by the Department's Bureau of International Narcotics 
and Law Enforcement Affairs (INL) and USAID, Afghan farmers now have 
better access to resources for growing licit crops, rather than poppy. 
These are the types of results that we expect to see in 2014 and 
beyond, particularly with continued U.S. support for Afghan 
counternarcotics institutions.
    Our experience in other parts of the world has shown that 
counternarcotics is a long-term effort that requires a multifaceted 
approach, well integrated with broader efforts to support good 
governance and sustainable economic growth. Our focus has been, and 
will continue to be, to help the Afghan Government build institutions 
and the political will to take on the drug trade on its own. However, 
we cannot evaluate progress on the Afghan drug trade in a vacuum. There 
are other factors at play. We are working to develop a strong, licit 
economy that provides an alternative to the drug trade; to promote 
stable government institutions; and to cultivate an Afghan security 
force that can improve the security environment sufficiently to make 
drug cultivation and trafficking more difficult. These areas, along 
with dedicated counternarcotics efforts, will require continued U.S. 
support to reduce the supply of opium in the long term.
    Two points of clarification: the Governor-Led Eradication program 
supported by INL reimburses the expenses of poppy eradication that have 
been verified by the U.N.; it does not fund development projects. In 
addition the Good Performers Initiative provides funding for 
development projects in provinces that have achieved or maintained 
poppy-free status, have significantly reduced poppy cultivation, or 
have made significant counternarcotics efforts.

    Question #2. As I mentioned in my opening statement, I am concerned 
about Afghanistan's ability to raise revenue in the future. For years, 
government revenue collection had steadily increased, but the World 
Bank reports an 11 percent decrease in nominal terms during the first 
half of 2013. In a recent report, the Bank blamed the shortfall on 
``leakages and weakness in administration, particularly in customs.''

  <diamond> What concrete measures is the State Department taking to 
        improve the Afghan Government's ability to collect revenue?

    Answer. We agree that Afghanistan's future depends in large part on 
the ability of the Afghan Government to efficiently and transparently 
collect revenues to become more self-reliant. We have been tracking 
Afghan revenues very closely and using diplomacy along with assistance 
to help build a sustainable revenue base and ensure the country meets 
its revenue potential. Afghan revenue collection got off to a 
disappointing start in 2013, due to a number of factors, including the 
slowdown in economic growth, the collection of some 2013 taxes ``in 
advance'' during the 2012 fiscal year, and corruption. Revenues 
rebounded somewhat over the summer and early fall after the Ministry of 
Finance introduced several reform measures, although the latest data 
shows that revenues through the first 9 months of 2013 were still 7.4 
percent below revenues from the prior year over the same period. These 
results illustrate uncertainty surrounding the ongoing security and 
upcoming political transitions, which has reduced investor confidence, 
dampened economic growth, and reportedly led more officials to engage 
in rent-seeking and corrupt behavior as they contemplate the possible 
loss of their government positions post-election.
    We and other donors anticipated the strain the transition would put 
on the Afghan economy and have designed and implemented a number of 
programs and initiatives to improve the prospects for Afghan revenue 
collection by focusing on more immediate means of revenue generation as 
well as longer term institutional changes that will promote sustainable 
growth, at the same time closing the space for corruption. We have 
focused on improving the performance of the current top revenue 
generating areas--taxes and customs fees--and initiated efforts to 
support the development of new sources of revenue including from 
extractives and a planned value added tax. Programmatically, USAID has 
begun implementing its new $78 million Afghan Trade and Revenue (ATAR) 
project that will work directly with the Ministry of Commerce and 
Industry, and the Ministry of Finance to improve customs and border 
procedures, use improved procedures and technology to reduce 
corruption, complete Afghanistan's accession to the WTO, and build 
fiscal capacity. The Department of State and the Office of the U.S. 
Trade Representative have also worked closely with the Afghan 
Government and are hopeful Afghanistan will be able to accede to the 
WTO in 2014. Based on the experience of other countries, we expect WTO 
accession will have a positive influence on GDP growth and translate 
into increased revenue from business taxes and customs fees. 
Additionally, USAID will continue its ongoing project supporting 
electronic funds transfer that increases transparency and efficiency in 
the collection of taxes and fees, as well as the distribution of 
salaries and other uses of funds. USAID has been implementing a program 
in the extractives sector that will help the Ministry of Mines and 
Petroleum and the private sector to develop the professional skills and 
transparent systems required to attract world-class investors to 
exploit Afghan natural resources and generate royalties and additional 
taxable economic activity. The U.S. Embassy in Kabul hosts the U.S. 
Customs and Border Protection-managed Border Management Task Force, 
which provides direct mentoring to Afghan border and customs officials 
at three land border crossing points, inland customs depots, 
international airports, both agencies' headquarters, and in the 
National Customs Academy. The Embassy Borders Office helps to 
coordinate various U.S. and international agencies working in 
Afghanistan to improve border management.
    The Department is also using a number of diplomatic initiatives to 
help build a more sustainable revenue base. We and other donors are 
using the Tokyo Mutual Accountability Framework to encourage key 
economic reforms to support revenue, including compliance with the 
existing IMF Extended Credit Facility (which includes a revenue 
benchmark of 17 percent of GDP by 2025 and requires passage and 
implementation of new value-added tax legislation that is currently 
being considered by the Afghan Parliament), improved budget 
transparency, recovering additional embezzled assets from Kabul Bank, 
and other activities, which should encourage greater trade and 
investment flows. Afghanistan also explicitly acknowledged at the Tokyo 
Conference that the international community's ability to sustain 
support for Afghanistan in the future depends on meaningful Afghan 
efforts to combat corruption. In addition, the Department of State has 
engaged with the Afghan Government and governments in neighboring 
countries to strengthen regional trade, transport, and energy networks 
that have the potential to add to Afghan revenues in the future. The 
U.S. Embassy in Kabul has regular consultations with the Ministry of 
Finance at all levels to advise on revenue matters, help in planning 
for continuity through the transition, and resolve disputes in various 
taxation cases.

    Question #3. What is the organizational structure of SRAP? How many 
personnel work in SRAP and what are their specific roles? How does SRAP 
coordinate with the South and Central Asian Affairs (SCA) Bureau?

    Answer. SRAP was created in 2009 by former Secretary Clinton to 
lead diplomatic and development efforts in Afghanistan and Pakistan. 
SRAP reports directly to the Secretary and through him to the 
President. It is comprised of 22 personnel who form the core of a 
``whole of government'' approach to policymaking and implementation. 
This core office includes direct hires from the State Department and 
other USG agencies, a representative from the German Foreign Ministry, 
and outside subject matter experts.
    In addition, the country offices for Afghanistan and Pakistan 
(about 20 personnel assigned to each office) and the Embassies in Kabul 
and Islamabad report to the Special Representative. Reflecting the 
broader regional context and intersection with U.S. relations with 
India and Central Asia, the Principal Deputy SRAP is ``dual-hatted'' as 
a Deputy Assistant Secretary in SCA. SRAP and SCA coordinate closely on 
a range of regional issues including Afghanistan's and Pakistan's 
relations with their neighbors.

    Question #4. In report # GAO-12-750, GAO made the following 
recommendation:
    To ensure that current and future assisted interagency acquisitions 
in support of State's missions in Iraq and Afghanistan are consistent 
with regulatory requirements and guidance designed to improve the 
management and use of such acquisitions, the Secretary of State and 
Secretary of Defense should undertake a comprehensive review of all 
existing and proposed assisted interagency acquisitions in support of 
State's missions in Iraq and Afghanistan to identify and implement 
corrective measures to bring the acquisitions into compliance and to 
strengthen management.
    Specifically, this should entail (1) the Department of State 
assessing the cost effectiveness and full range of requirements, which 
can be used to inform future best procurement approach determinations, 
(2) the Departments of State and Defense preparing and signing 
interagency acquisition agreements that address the elements 
established in the Federal Acquisition Regulation (FAR) and Office of 
Management and Budget (OMB) guidance, such as roles and 
responsibilities for contract management and oversight, and (3) the 
Department of State planning for sufficient personnel to perform 
contract oversight.

  <diamond> Please provide a status update on #1, #2, and #3.

    Answer. (#1) State continues to host biweekly Transition 
(Contracting) Phase II Working Group teleconference calls between 
Department multibureau participants and Department of Defense (DOD) to 
address requirements and post-transition activity in Iraq. 
Additionally, State cochairs both the Afghanistan Executive Steering 
Groups (ESG) and the Afghanistan Transition Coordination Group (TCG) 
with DOD to jointly assess the current and future acquisitions 
activities for Afghanistan, and to ensure a ``whole of government'' 
approach. Through these groups, State and DOD are addressing the full 
range of requirements, exploring the most cost effective means for 
delivery, and working to deploy the appropriate interagency agreements 
to ensure compliance with regulatory guidance. State is also working 
with DOD to enhance the database at MAX.gov used to store information 
on joint Interagency Agreements. With regard to existing interagency 
acquisitions, State continues to work with DOD to identify where any 
required justifications do not exist and generate the required 
documentation in accordance with Federal Acquisition Regulation and DOD 
FAR (DFAR) requirements. Future State/DOD collaborations would have the 
same documentation requirements.
    With regard to contract oversight, State has engaged DOD for more 
clarity on their procedures identifying the number of personnel 
required to manage DOD contracts in dangerous and constantly changing 
environments. State is keenly aware of the importance of providing 
contractor oversight and is currently considering a variety of methods 
to formulate the right number of properly trained Contracting Officer's 
Representatives (COR) numbers--including the size of contractor 
staffing, location and/or function of the contract, a computation 
related directly to the dollar value of the contract, or perhaps a 
hybrid that takes into account each of these factors. In the case of 
both Iraq and Afghanistan, their approach to contractor oversight and 
staffing has been detailed in the Department of State Acquisition Human 
Capital Plan submitted to the Office of Budget and Management on March 
31, 2013.
    (#2) State issued Procurement Information Bulletin (PIB) 2013-03 
Acquisition Agreements on January 30, 2013, to fully align Department 
policy with current FAR and OMB requirements regarding interagency 
acquisition.
    (#3) State transferred to DOD $1,972,240 via a Military 
Interdepartmental Purchase Request for Rock Island Contracting Command 
acquisition services on September 6, 2012.

    [The above responses to GAO-12-750 were transmitted to the Senate 
Committee on Foreign Relations on October 3, 2013, via letter signed by 
the Assistant Secretary for Legislative Affairs.]

    Question #5. In report # GAO-12-750, GAO made the following 
recommendation:
    To better inform future decisions regarding the use of assisted 
interagency acquisitions and to better manage and more consistently 
implement their use, the Secretary of State should revise the State 
First policy to fully align with current FAR and OMB requirements 
regarding interagency acquisitions.

  <diamond> Please provide a status update on this recommendation.

    Answer. The Department's revised policy was issued as Procurement 
Information Bulletin (PIB) 2013-03 on January 30, 2013, to fully align 
policy with current FAR and OMB requirements regarding interagency 
acquisitions.

    [The above response to GAO-12-750 was transmitted to the Senate 
Committee on Foreign Relations on October 3, 2013, via letter signed by 
the Assistant Secretary for Legislative Affairs.]

    Question #6. In report # GAO-12-614, GAO made the following 
recommendation:
    To improve State's ability to track progress of efforts in Pakistan 
to counter IEDs, the Secretary of State should direct the U.S. mission 
in Pakistan to enhance its counter-IED performance measures to cover 
the full range of U.S. assisted efforts.

  <diamond> Has State produced a strategic document that contains 
        counter-IED performance measures in Pakistan? If so, could you 
        please share this document with the committee?

    Answer. The Department is committed to countering the threat of 
improvised explosive devices (IEDs) in Afghanistan and in Pakistan, and 
with DOD is leading a robust interagency effort aimed at disrupting the 
illicit network of IEDs and IED precursors. We agree with you on the 
importance of performance metrics as part of that effort and that, 
ultimately, the only metric that matters is the reduction of lives lost 
and affected by IEDs. We would be pleased to brief committee members or 
staff on the different performance measures that have been incorporated 
into our counter-IED efforts.
    The Department is prioritizing efforts to counter the threat of 
IEDs as part of the Law Enforcement and Counterterrorism Working Group 
of the Strategic Dialogue with Pakistan. Through its security 
assistance programs, the Department is providing equipment and training 
to Pakistan's security services to improve their capacity to combat 
IEDs. The Department has also provided support for public information 
programming aimed at increasing the Pakistani public's awareness and 
activism on the IED threat. The Department continues to work with 
Pakistan in close coordination with JIEDDO to implement its action plan 
for countering IEDs. We look forward to continued discussions with 
Congress on the progress and impact of these activities.

    Question #7. How many personnel currently work at the U.S. Embassy 
in Afghanistan? How many are full time State Department personnel and 
how many are contractors? How many are Third Country Nationals?
    How many personnel are assigned to U.S. diplomatic presences in 
Jalalabad, Herat, and Kandahar? Does the State Department have staff 
assigned elsewhere in the country?
    When does the State Department anticipate completing construction 
on new facilities at the Embassy compound in Kabul? How much will this 
construction cost?

    Answer. There are 785 U.S. direct hire civilian employees in 
Afghanistan, 420 of which are State Department. There are 3,812 
civilian contractors associated with the mission: 1,976 are U.S. 
citizens; 495 are Afghans, and 1341 are Third Country Nationals.
    Currently, there are five diplomatic staff members assigned to 
Forward Operating Base Fenty at Jalalabad Airfield in Nangahar. The 
diplomatic staff in our consulate in Herat has been drawn down 
following the attack last spring; we have 13 diplomatic staff operating 
out of a temporary location at the Italian base in Herat (Camp Arena) 
while the consulate facility is being repaired. In Kandahar, we have 22 
diplomatic staff colocated with the military on Regional Platform at 
Kandahar airfield. There are 67 other chief of mission civilians 
serving at 5 other locations outside of Kabul including our consulate 
in Mazar-e-Sharif.
    The multiyear Embassy construction project is expected to be 
completed in early 2017. The cost of the project is estimated to be 
approximately $860 million.

    Question #8. As we discussed during the hearing, the U.N. recently 
released a report which indicated that only 7 percent of incidents of 
violent crimes against women went through a judicial process using the 
Elimination of Violence Against Women law.

  <diamond> What proportion of overall incidents of violent crime is 
        prosecuted by the Afghan justice system?

    Answer. The lack of reliable data on the incidence and prosecution 
of crime throughout Afghanistan makes it difficult to compare 
prosecutions for crimes against women with prosecutions for violent 
crimes in general. The State Department is dedicated to supporting 
Afghan justice institutions in increasing the number of prosecutions 
for both violent crimes and crimes against women. The recently launched 
Case Management System (CMS), developed through Department of State 
funding and the only reliable data on nationwide prosecutions, has 
registered a total of 2,418 arrests for violent crime in the three 
provinces in which CMS is operational (Kabul, Herat, and Balkh). Of 
these cases, recorded from October 2012 to September 2013, 1,443 led to 
prosecution, or 60 percent of reported violent crimes in those three 
provinces (nationwide rates are not available). In those same three 
provinces 451 arrests were made pursuant to the Law on Elimination of 
Violence Against Women (EVAW) from January-December 2013. Of those, 274 
went to prosecution, handled by Elimination of Violence Against Women 
(EVAW) Prosecution Units supported by the U.S. Government. This 
represents a 61-percent prosecution rate, nearly identical to the rate 
for all violent crimes. However, it should be noted that Kabul, Mazar, 
and Herat are all urban areas and that rates are almost certainly lower 
in rural areas.
    The figure cited in the U.N. report also needs to be understood in 
light of important differences between EVAW law cases and other violent 
crime cases prosecuted by the Afghan justice system. Under the EVAW 
law, a victim may withdraw her case at any stage of judicial 
prosecution and police/prosecutors may not pursue a case after this has 
occurred. Therefore, it is not that 7 percent of cases were prosecuted 
and 93 percent were mediated. A high number of cases end up being 
withdrawn by the victim. Although UNAMA notes this provision, it does 
not identify it as a possible contributing factor to the gap between 
registration and prosecution.
    It is also important to keep in mind that women often seek justice 
within their own communities through informal justice systems that have 
been in place throughout Afghan history. That said, criminal cases are 
supposed to be referred by the jirga/shura traditional dispute 
resolution bodies to the district courts. Statistics could be low 
because women drop the case or fear being accused of ``Zina,'' or moral 
crimes themselves. It is likely that the majority of violent crimes 
against women have not been adjudicated in the formal system; however, 
we believe that the percentage has steadily increased over the past 10 
years and continue to monitor the progress of EVAW prosecutions. The 
United States has, and will continue to, advocate for full 
implementation of the 2009 EVAW law. We will also remind Afghan leaders 
of their commitments under the Tokyo Mutual Accountability Framework 
(TMAF) to implement EVAW.
             letter and gao report submitted to supplement 
                 answers to questions no. 4 and no. 5 


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




[The above letter and GAO report were also sent to: Bob Corker, 
Committee on Foreign Relations, U.S. Senate; Edward R. Royce, chairman, 
Committee on Foreign Affairs, House of Representatives; Eliot L. Engel, 
Committee on Appropriations, House of Representatives; Barbara A. 
Mikulski, chairwoman, Committee on Appropriations, U.S. Senate; Richard 
C. Shelby, vice chairman, Committee on Appropriations, U.S. Senate; 
Harold D. Rogers, chairman, Committee on Appropriations, House of 
Representatives; Nita M. Lowey, Committee on Appropriations, House of 
Representatives; Darrell E. Issa, chairman, Committee on Oversight and 
Government Reform, House of Representatives; Elijah E. Cummings, 
Committee on Oversight and Government Reform, House of Representatives; 
Thomas R. Carper, chairman, Committee on Homeland Security and 
Governmental Affairs, U.S. Senate; and, Tom Coburn, Committee on 
Homeland Security and Governmental Affairs, U.S. Senate.]
                                 ______
                                 

           Responses of Donald L. Sampler, Jr., to Questions 
                     Submitted by Senator Menendez

    Question #1A. Security of Aid workers.--Do recent attacks on aid 
workers indicate an emerging trend where these individuals, even for 
Afghan-led initiatives, are targeted by insurgents?

    Answer. The number of attacks against aid and humanitarian 
organizations in the past year has increased. Aid and humanitarian 
organizations operating in Afghanistan are funded from a broad range of 
U.S. and non-U.S. affiliated sources, including other foreign 
governments and private organizations, not all of whom report threats 
and attacks to the Embassy. However, attacks that are reported are 
recorded in the Aid Worker Security Database (https://
aidworkersecurity.org/). According to this data base, 56 attacks were 
reported in 2012 and 79 reported in 2013.

    Question #1B. Have threats to USAID staff and partners increased 
over the past year? If yes, by how much?

    Answer. The number of threats against USAID and USAID implementing 
partners in the past year has increased by 23.4 percent. The Partner 
Liaison Security Office, USAID Afghanistan, tracks these incidents 
using the Afghanistan Infrastructure and Security Cartography System 
(AISCS). According to AISCS, 47 threats were reported in 2012 and 58 
reported in 2013.

    Question #1C. If these threats have increased, does USAID have the 
adequate budget resources to address this growing threat environment? 
Is there a shortfall in funding?

    Answer. USAID implementing partners are responsible for providing 
security for their staff. There is no indication at present that the 
average cost of security for USAID implementing partners is increasing, 
but the security situation in Afghanistan is fluid; it can vary based 
on threat and location, and can change suddenly and often without 
warning. Security assessments (conducted by the Implementing Partner) 
are an ongoing process. Security costs are factored into partner 
proposals for USAID review. Historically, specific security costs for 
USAID partners vary from location to location and the type of project. 
Currently for partners utilizing the Afghanistan Public Protection 
Force (APPF), security costs average 6.2 percent of the total estimated 
cost of project awards. Additionally for USAID personnel, the USAID 
Regional Security Office (RSO) assesses security conditions and makes 
appropriate resource recommendations.

    Question #2A. Duplicative efforts.--In your testimony you stated 
that USAID, in consultation with the Government of Afghanistan, 
substantially scaled down a $32 million agricultural faculties program 
found to be duplicative of efforts by another donor.

  <diamond> Please describe USAID's consultation mechanism with the 
        Government of Afghanistan to identify duplicative development 
        efforts.

    Answer. USAID conducts extensive consultation with the Government 
of Afghanistan across its entire civilian assistance portfolio, 
including sector- and project-specific coordination, and one of the 
reasons for this consultation is to identify duplicative development 
efforts. USAID consults on an almost daily basis with the Aid 
Management Directorate (AMD) of the Afghan Ministry of Finance (MOF). 
The AMD is responsible for coordinating all civilian assistance on 
behalf of the Afghan Government. USAID also frequently takes the lead 
in coordinating donor community collaboration with the government 
through the AMD.
    USAID conducts three annual consultation processes with the MOF. 
Joint portfolio reviews allow USAID technical staff, Afghan Government 
line ministries, and the AMD to conduct detailed reviews of USAID 
projects. Donor Cooperation Dialogues conducted with each donor allow 
for macrolevel evaluation of assistance flows and harmonization of the 
donor community. Core Donor Consultations focus on on-budget assistance 
and allow donors and the Afghan Government to plan together for the 
coming year's expenditures on development projects. As a part of these 
processes, donors submit development project data, including locations, 
funding, and results, to the Afghan Government so that it can analyze 
annual assistance across the donor community, across sectors, and 
across geography. Furthermore, USAID and other donors provide 
information on the alignment of USAID's portfolio of programs with 
Afghanistan's National Priority Programs, allowing donors and the 
government to work together in balancing assistance across priority 
sectors.
    In addition to the portfolio-wide processes mentioned above, USAID 
consults regularly with Afghan Government line ministries on individual 
project development and implementation. These ministries are essential 
partners in planning, developing, and implementing USAID assistance 
projects. Some coordination examples include:

  <bullet> Infrastructure--Interministerial Commission for Energy, 
        chaired by the Afghan Government, which includes the Ministry 
        of Energy and Water, Ministry of Public Works, and Da 
        Afghanistan Breshna Sherkat (DABS, the national utility), USAID 
        and other key donors, and the International Security Assistance 
        Force (ISAF).
  <bullet> Agriculture--Provincial Level Technical Working Groups with 
        the Ministry of Agriculture, Irrigation, and Livestock (MAIL) 
        and USAID staff.
  <bullet> Health--USAID holds a monthly meeting with the Deputy 
        Minister for Policy and Planning of the Ministry of Public 
        Health (MoPH). In addition, technical working groups composed 
        of MoPH and USAID and other donor staff provide an opportunity 
        to ensure that donors are effectively dividing their efforts 
        across distinct elements of technical strategies.

    Question #2B. Are there consultation mechanisms in place with other 
donors, or just with the Government of Afghanistan?

    Answer. USAID participates in extensive coordination mechanisms 
among other donors in addition to bilateral and multilateral 
coordination consultations with the Afghan Government. In addition to 
Afghan Government-led coordination bodies, donors often hold 
consultations at the sector and project level to harmonize activities. 
Some consultations are formalized by working through international 
organizations, such as the United Nations or the World Bank. Others are 
standing committees that coordinate activities in a given sector. Some 
consultations arise as needed to support specific projects or 
activities. Examples include:

  <bullet> United Nations Assistance Mission to Afghanistan (UNAMA)--
        Hosts policy-level and sector-specific committees to coordinate 
        donor activities, including the weekly Head of Agency meeting, 
        with every other meeting cochaired by the Afghan Ministry of 
        Finance.
  <bullet> Afghanistan Reconstruction Trust Fund (ARTF)--Managed by the 
        World Bank since 2002, ARTF is one of the most effective 
        standing mechanisms for donor consultation and cooperation. 
        Areas of collaboration include agriculture, health, education, 
        governance, and public financial management. USAID is the 
        largest annual contributor to ARTF and directly supports 
        programs in education, health, agriculture, and economic 
        growth.
  <bullet> Afghanistan Infrastructure Trust Fund (AITF)--The AITF, 
        managed by the Asian Development Bank, allows for donor 
        coordination and joint funding of infrastructure projects.
  <bullet> Health Sector--USAID chairs the Health Development Partners 
        Forum. USAID also partners closely with the World Bank and the 
        European Union in supporting the Afghanistan basic health 
        package and essential hospital services. Future programming 
        will be coordinated through the World Bank's System Enhancement 
        for Health Action in Transition (SEHAT) program. While close 
        donor coordination has been an important factor in achieving 
        dramatic health gains over the last decade, the SEHAT program 
        is expected to streamline management of donor support and 
        further enhance coordination.
  <bullet> Elections--USAID works with other partners through an 
        elections working group to ensure that donor support to 
        elections is coordinated and that key policy concerns are 
        communicated jointly to the Afghan Government. USAID also 
        supports elections programming through the multidonor United 
        Nations Development Program ELECT project.
  <bullet> Agriculture--In addition to regular consultations with the 
        Ministry of Agriculture, Irrigation, and Livestock (MAIL), 
        USAID is part of an Agriculture Donor Coordination Working 
        Group, composed of donors and MAIL that meets quarterly to 
        strengthen coordination among partners. Further, USAID 
        organizes a bimonthly Water Donor's Coordination meeting that 
        is cochaired by USAID's agriculture and infrastructure offices.
  <bullet> Infrastructure--In addition to regular consultations with 
        the Interministerial Commission for Energy, USAID is part of an 
        intra-U.S. Government working group on infrastructure cochaired 
        by USAID and the Department of Defense.
  <bullet> Gender--USAID participates in gender coordination and 
        working groups at several levels in Afghanistan. As the cochair 
        of the U.S. Government's Kabul Interagency Gender Working 
        Group, USAID engages in the coordinated effort to implement the 
        U.S. Government Gender Strategy in Afghanistan (2012). 
        Externally, USAID participates in the Interagency Gender Donor 
        Coordination group in Kabul. In Washington, the Office of 
        Afghanistan Pakistan Affairs works closely with the State and 
        Defense Departments through relevant task forces on: Women, 
        Peace and Security, Gender-Based Violence, and Trafficking in 
        Persons to ensure a coordinated effort.

    Question #2C. Are there any other cases where duplicative efforts 
have been found? What action was taken?

    Answer. USAID takes significant steps to ensure projects in design 
are not duplicative of existing efforts by the Afghan Government or 
other donors. However, with the complexity of the environment in 
Afghanistan, and the unusually large number of donors contributing high 
levels of assistance, duplication has occurred. When duplicative 
efforts are identified, USAID works with the relevant partners to 
streamline efforts and ensure they are mutually supportive. This is 
becoming increasingly important in the transition period, and the 
expected decrease in donor funds over time means that greater 
harmonization will maximize available funding.
    Some examples of efforts to streamline donor support and eliminate 
duplication are noted below:

    Health: In the early stages of the international intervention in 
Afghanistan, USAID, the European Union (EU) and the World Bank divided 
responsibility for delivering basic health services and essential 
hospital services across Afghanistan. This division of labor allowed 
for swift improvements in health service delivery, and directly 
contributed to the significant health impacts over the past decade, 
including remarkable gains in access to health care, maternal 
mortality, and infant and child mortality. However, in establishing the 
systems necessary to swiftly deliver health services, each partner had 
to create appropriate procurement mechanisms and financial management 
processes through the Ministry of Public Health to ensure that funds 
were managed and results achieved according to their respective 
policies and regulations. As of 2014, USAID will be joining the EU in 
delivering health services through the World Bank's SEHAT program. This 
is a significant step that will eliminate separate management systems 
and unify the Afghan health system. Ultimately, the goal is for this 
single, donor-supported health system to transition to an Afghan-
managed health system.
    Energy: USAID is coordinating with the Asian Development Bank (ADB) 
and the World Bank on their regional energy proposals, the 
Turkmenistan, Uzbekistan, Tajikistan, Afghanistan, and Pakistan (TUTAP) 
energy corridor project and the proposed Central Asia-South Asia 
(CASA)-1000 project. In some cases, we have found small duplicative 
efforts in this area. For instance, a power system study being funded 
by USAID had some overlap with work being done by World Bank's 
contractor regarding CASA-1000 transmission line routing. USAID's 
implementing partner will directly coordinate further with the World 
Bank's contractor to avoid duplicative work.
    Democracy and Governance: USAID is currently designing a follow-on 
to the Regional Afghanistan Municipal Program for Urban Populations 
(RAMP UP) municipal support program. RAMP UP made significant gains in 
major municipalities, and the follow-on program will work to sustain 
those gains. As other donors are active in the large cities of these 
municipalities, however, the follow-on program will place less emphasis 
on major municipalities in favor of increased emphasis on small and 
medium municipalities. This approach will decrease duplication of 
effort in major municipalities, while sustaining previous gains and 
broadening USAID's reach to those cities that will benefit most from 
our assistance.

    In consultation with other donors and the Government of 
Afghanistan, USAID has become concerned that capacity-building efforts 
in several ministries may be duplicative, as several donors may be 
supporting the same ministry through different projects. USAID will 
conduct an assessment of its off-budget ministry capacity-building 
programs to identify duplicative efforts and other weaknesses, and when 
appropriate seek to coordinate future capacity-building through 
mechanisms such as ARTF's Capacity Building for Results and the Afghan 
Government's Civilian Technical Assistance Program. USAID is currently 
drafting the statement of work for an assessment team that should begin 
its work in early 2014.

    Question #3A. Bilateral Incentive Fund.--In your testimony you 
stated that $60 million remains in the U.S. bilateral incentive fund, 
to be released as the Afghan Government meets certain thresholds of 
progress on the key TMAF indicators.

  <diamond> Which TMAF indicators is the remaining $60 million tied to 
        and what are the benchmarks the Government of Afghanistan must 
        reach for the funds to be released?

    Answer. The $75 million in incentive funding from FY 2012 resources 
is tied to progress on the five Tokyo Mutual Accountability Framework 
(TMAF) Areas: (1) representational democracy and equitable elections; 
(2) governance, rule of law, and human rights; (3) integrity of public 
finance and commercial banking; (4) government revenues, budget 
execution and subnational governance; and (5) inclusive and sustained 
growth and development. Donors and the Afghan Government agreed upon 17 
``hard deliverables'' in the first half of 2013 that would demonstrate 
progress in the five TMAF reform areas.
    The Afghan Government has made satisfactory progress on a number of 
the hard deliverables, including the four associated with TMAF Area 1 
(Representational Democracy and Equitable Elections), allowing the 
release of the first $15 million from the Incentive Fund.
    Disbursement of the remaining $60 million is dependent on progress 
in the other four thematic TMAF areas. We are evaluating now whether 
the Afghan Government has made sufficient progress on these remaining 
deliverables.
    Prior to January 29, 2014, when the Joint Coordinating and 
Monitoring Board (JCMB) with the Government of Afghanistan and other 
members of the international community is scheduled to be convened, the 
U.S. Government will finalize its assessment of Afghan progress and 
determine which, if any, of the remaining four TMAF areas show progress 
sufficient to justify the release of additional FY12 incentive funds.

    Question #3B. Is $75 million for the bilateral incentive fund an 
appropriate limit, or should the fund be expanded to include larger 
amounts of U.S. assistance to the Government of Afghanistan?

    Answer. The $75 million in incentive money is only the first part 
of a larger $175 million commitment the U.S. Government made at the 
July 2013 Senior Officials Meeting in Kabul to incentivize progress 
toward TMAF goals. As part of that commitment, the U.S. plans to 
allocate an additional $100 million in incentive funds to incentivize 
TMAF progress by the Afghan Government in 2014. The specific details of 
what performance is needed will be made after the January 2014 JCMB 
meeting referenced in the prior answer.
    In addition to the bilateral TMAF incentive fund, the U.S. has 
obligated approximately $318 million to the multilateral Afghanistan 
Reconstruction Trust Fund (ARTF) in fiscal year 2013, part of which 
will be used for incentive funding. The U.S. contribution is pooled 
with that of other donors and allocated to a number of mechanisms 
within the fund, including the ARTF Incentive Program. The ARTF 
incentive fund focuses primarily on incentivizing improved Afghan 
financial management and transparency.
    Further, the U.S. and other donors announced their intentions in 
the TMAF to incentivize 10 percent of their funding by the end of 2014, 
with the goal of increasing that amount to 20 percent by the end of the 
next decade (2024). The administration considers the United States-
Afghan bilateral TMAF incentive fund and ARTF Incentive Program to be 
part of the overall incentive funding initiative. We believe the $175 
million slated for the bilateral incentive fund and the additional 
funding in the ARTF incentive program provide incentive for Afghan 
reform without undermining development progress and stability during 
this critical year of transition.

    Question #4A. In your testimony you stated that the ``Transfer of 
Tasks'' exercise helped inform USAID on how to transfer ISAF 
development projects to other entities. In 2011 the Government 
Accountability Office issued a recommendation which called on the 
Department of Defense to enter information about its Afghanistan 
development projects into a common database with the State Department 
and USAID. However, this recommendation is yet to be implemented. I am 
concerned that the lack of a common database of development projects 
creates an unnecessary gap in the institutional knowledge base of our 
development efforts.

  <diamond> Is there a plan to transfer information on projects 
        conducted by CERP, TFBSO and AIF into the Afghan Info database?

    Answer. USAID recognizes the value of a more comprehensive database 
of USG funded projects in Afghanistan and is working with the State 
Department and the Department of Defense (DOD) to determine the most 
effective manner to achieve this goal. To date, Afghan Info has 
received a limited, one-time transfer of Commander's Emergency Response 
Program (CERP) data, but no data on the Task Force for Business 
Stability Operations (TFBSO) or the Afghanistan Infrastructure Fund.
    However, close and continued engagement with DOD ensures that 
programs are coordinated and guarded against duplication of effort. 
Currently, USAID has not taken on any DOD projects identified from the 
U.S. Government Transfer of Tasks exercise. Moving forward, if USAID 
were to take on development assistance oriented tasks from DOD based on 
the Transfer of Tasks exercise, the tasks would be added to Afghan 
Info.
    USAID has attempted over time to retrieve relevant DOD CERP data as 
opportunities have arisen, although a formal mechanism does not 
currently exist. To date, as mentioned above, USAID has received a 
limited one-time transfer of DOD CERP records. More data transfers have 
been difficult to coordinate because DOD project records are stored on 
a classified system and in some cases project data itself is 
classified. As a result, CERP data are only available in an 
unclassified form at a significant delay due to challenges such as 
ensuring the quality of data and preventing operational risks that 
could flow from the release of data in unclassified form.
    In addition, USAID and DOD databases collected different 
information, which makes data transfer more difficult. Since Afghan 
Info is a USAID system that was designed to fit USAID requirements and 
processes, it is often difficult to accommodate other agencies' 
workflows. Recently, Afghan Info modifications have focused on upgrades 
that better meet USAID's internal performance management needs, 
particularly to facilitate better use of partner reporting and better 
ways to monitor projects from an increased number of sources, such as 
the Afghan Government, other donors, and the beneficiaries themselves.
    The next opportunity for transferring DOD information into Afghan 
Info will likely occur once CERP has ended and the Office of the 
Secretary of Defense for Policy has finished reviewing and 
declassifying CERP data. At that time, we anticipate that current 
restrictions on the transfer of data to Afghan Info will be lessened.
    Regarding AIF activities, USAID consults regularly with DOD on the 
implementation of infrastructure programs to ensure all projects are 
coordinated and provide the maximum benefit for Afghanistan's 
development. As such, current coordination provides USAID better 
visibility of AIF activities than would be possible through any attempt 
to incorporate non-USAID administered activities into Afghan Info while 
they are under implementation. Thus AIF has generally not been part of 
this discussion.
    To date, USAID has not sought to incorporate TFBSO into the Afghan 
Info database. TFBSO programs are significantly more complicated to 
incorporate due in part to the nature of its program portfolio and 
overall organizational and bureaucratic differences in program data-
sharing. However, USAID has quarterly coordination meetings with TFBSO 
to ensure full visibility and understanding of the USG programs in the 
economic and infrastructure sectors. On a more frequent, but ad hoc, 
basis the USAID team working with the Ministry of Mines meets with the 
TFBSO staff working with the extractive sector to discuss and better 
coordinate programs.
    In addition, there are other coordination mechanisms in Kabul 
currently in place like the Deputies-Level Executive Working Group, 
regular field level coordination, and close cooperation between working 
level projects teams at USAID, the Department of State and DOD.

    Question #4B. Please share the ``transfer of tasks'' list with the 
committee.

    Answer. USAID has been an active participant in the Transfer of 
Tasks exercise in coordination with U.S. Embassy Kabul, which led 
civilian agency participation in the review process. The Department of 
Defense (DOD), via CENTCOM and ISAF, compiled an initial list of 
approximately 420 tasks for consideration during the Transfer of Tasks 
exercise. USAID has not taken on any DOD projects identified during the 
exercise. As the list of tasks is a DOD product, we respectfully 
request that the committee coordinate with the Office of the Secretary 
of Defense on this request for the list.

    Question #5A. In your testimony you stated that USAID will 
terminate projects or activities if adequate third-party oversight is 
not possible or adequate progress is not being made.

  <diamond> Please list any past development projects or activities in 
        Afghanistan that were terminated because of lack of oversight 
        or progress.

    Answer. To date, USAID has not terminated/cancelled any projects 
for the reason of constraints on oversight. USAID has and will continue 
to terminate/cancel and extensively de-scope projects when there are 
problems with implementation and progress. Please find attached a list 
of terminated/cancelled projects since 2008.
    Issues with progress can take many forms including not having the 
desired impact, delays in implementation, and corruption. Regardless of 
the cause or form, USAID provides appropriate justification and 
documentation to terminate programs.

    Question #5B. How many USAID projects do you estimate will rely on 
third-party monitoring in 2015?

    Answer. USAID applies a multitiered monitoring approach to collect 
and verify data using a variety of means to inform decisionmaking. This 
approach recognizes the increasing importance of a variety of 
monitoring sources to gather project monitoring data and that each 
project requires its own, unique monitoring plan based on the type of 
activities taking place. One example is the important use of satellite 
imagery as a monitoring tool for crop production. Customized monitoring 
plans position each USAID project manager to gather and analyze 
monitoring data from various, appropriate monitoring sources, to 
compare data to ensure confidence in the reporting, and to make 
programmatic decisions based on the results. By using multiple and 
overlapping sources of monitoring data, USAID can compare information 
received from separate sources to verify project activities and ensure 
the greatest degree of oversight possible. Tiered monitoring actors 
are:

  <bullet> Tier 1: U.S. Government (USAID and other agencies);
  <bullet> Tier 2: Implementing Partners;
  <bullet> Tier 3: Afghan Government (internal monitoring and 
        evaluation systems, observation) and other donors;
  <bullet> Tier 4: Civil society, local organizations, and 
        beneficiaries; and
  <bullet> Tier 5: Independent Monitoring Contractors (Third Party 
        Monitors).

    USAID has also developed a new unit at the mission, the 
Implementation Support Team, which is responsible for providing an 
additional layer of critical review and analysis for the many streams 
of monitoring data. This unit will review performance at the project 
and sector level, and provide USAID leadership with alternative courses 
of action for addressing challenges with project implementation. 
Currently, USAID already utilizes independent monitors as one method of 
monitoring projects in the infrastructure, health, and stabilization 
sectors in Afghanistan. We estimate in 2015 that much of the likely 
portfolio, consisting of some 60 to 80 projects, will use the Tier 5 
Independent Monitoring Contractors to one degree or another. USAID will 
regularly review project activities to determine if adequate oversight 
is possible, and make decisions about the viability of continued 
implementation, including the potential termination of activities.

    Question #5C. How much do you estimate third-party monitoring 
programs will cost in FY14 and FY15?

    Answer. Agency guidance recommends 5 to 10 percent of total program 
resources should be allocated for both monitoring and evaluation. This 
includes the required 3 percent of program funds for evaluations. USAID 
anticipates spending up to 6 percent of its resources on monitoring 
efforts, which includes third-party monitoring. The total cost of 
USAID's portion of the monitoring contract is thus well within the 2 to 
7 percent range outlined in Agency guidance.
    A lesson learned from USAID/Iraq's use of independent monitors is 
to provide adequate funding to monitoring contracts, which is a 
principle behind the Agency's guidance. This is necessary so that USAID 
can appropriately respond to a changing implementation environment. As 
such, the Monitoring Support Project (MSP) has an estimated project 
ceiling of up to $170 million, which includes a still-to-be-determined 
potential buy-in option for other U.S. Government agencies. Thus, the 
ceiling provides USAID operational flexibility that other contracts of 
this type do not have.

    Question #5D. Please describe in detail the specific tools that 
will be used to conduct third-party monitoring in Afghanistan.

    Answer. USAID clearly defines the role of Independent Monitoring 
Contractors; they do not represent the U.S. Government, the Afghan 
Government, or any other local organization, and they do not take the 
place of USAID staff as project managers. Their function is to monitor 
and verify--to USAID--whether USAID-funded activities have been 
undertaken according to the terms and conditions of contracts, grants 
and/or cooperative agreements with implementing partners. USAID then 
uses this information to manage its projects to achieve maximum 
development impact.
    Within this role, Independent Monitoring Contractors may use a 
variety of methods to verify project data. The precise nature of the 
data collection efforts will vary on a project-by-project basis. USAID 
is developing project specific monitoring plans. Potential monitoring 
tools include those described below:

    i. Site Visits: Individuals working under the Monitoring Support 
Project (MSP) will visit USAID project sites and independently verify 
activities implementing partners have completed and reported to USAID. 
USAID requires that these individuals have the relevant technical 
expertise for the sites they are visiting or the data they are 
collecting. These reports, including corroborating data, will be 
reviewed by USAID.
    Every effort will be made to corroborate information reported by 
monitoring partners. To do so, USAID compares information from site 
visits with additional evidence from other monitoring techniques, such 
as GPS tracking, photography, and crowd-sourcing, as described below, 
to mitigate the risk of bias, error, or corruption.

  <bullet> Global Positioning System (GPS) Tracking: MSP monitors will 
        be equipped with GPS receivers so they can navigate to and 
        verify activity locations using the geographic coordinates 
        provided to USAID by technical projects' implementing partners. 
        Monitors will use GPS receivers to record the precise location 
        of all of their verification visits. This information can be 
        collected through photos taken with GPS-enabled cameras (see 
        below), so location data collected with stand-alone GPS 
        receivers can be used to validate the coordinates embedded in 
        the photos.
      For security reasons, the MSP monitors may be required to devise 
        strategies for recording the precise locations of activities 
        using more discreet and inconspicuous GPS recording devices. In 
        the event that standard GPS receivers cannot be used for a 
        particular verification visit, the contractor will inform USAID 
        of the alternative method used to determine the coordinates for 
        a site visit before the monitoring is implemented.
  <bullet> Photography: GPS-, date- and time-stamp enabled digital 
        cameras are required for all site visits. These pictures 
        provide photographic evidence of project implementation and 
        also include the time and location of a particular verification 
        visit. Should security circumstances prevent monitors from 
        taking such pictures, the MSP monitor must inform USAID, 
        propose alternative measures for validating the authenticity of 
        the site visit report, and include information from the 
        alternate measures in the visit report. The photos will be 
        cross referenced by USAID to photos and locations provided by 
        the project implementer and the other locations provided by the 
        monitoring partner.

    ii. Satellite/Aerial Imagery Analysis: The requirement for 
satellite/aerial imagery data and analysis as a part of a verification 
and monitoring plan for a given project will be determined by USAID, in 
consultation with the MSP contractor. USAID will work with interagency 
partners that already procure commercial satellite imagery to acquire 
imagery of project sites where appropriate, so this cost will not be 
covered by MSP. An example of this approach would be an agriculture 
project required to measure changes in cultivated land, such as wheat 
or orchard crops, over time. USAID already uses this technique in 
Afghanistan and around the world through its Famine Early Warning 
System Network (FEWS-NET).
    iii. Surveys: USAID is requiring that MSP design and deploy two 
types of public opinion surveys:

  <bullet> Rapidly-developed and rapidly-deployed surveys. While the 
        scope and general conclusions of these surveys is more limited 
        than larger national surveys, they provide a quick perspective 
        on project activities for USAID, including supplemental data, 
        or short-term trends that may need further qualitative 
        research. They may be deployed through a number of instruments 
        and mediums, including human enumerators and cell phones.
  <bullet> Larger, more rigorous surveys. These are thoroughly designed 
        and tested surveys meant to prevent bias. They will be 
        sufficiently large to draw statistically significant inferences 
        and deployed by trained enumerators with quality control 
        measures in place.

    iv. Data collection with mobile devices: Verification and 
monitoring activities using mobile devices, including cell phones may 
also be used as monitoring tools. These include the following:

  <bullet> Conducting surveys of technical project beneficiaries via 
        short message service (SMS; i.e., text messages) or interactive 
        voice response systems. Surveys consisting of 1 to 20 questions 
        will be used where deemed appropriate by USAID. MSP will manage 
        the inflow of survey responses, compile them into a readable 
        format, and report findings back to USAID.
  <bullet> Assisting implementers of USAID technical projects in 
        incorporating cell phone-based data collection into their 
        project implementation. The purpose of this activity is to help 
        expedite monitoring efforts by assisting USAID and technical 
        project implementers to collect, manage, and utilize cellular 
        technology in implementation.
  <bullet> Managing data intake and databases for unsolicited 
        reporting. MSP will assist USAID in organizing and managing e-
        mail addresses and phone numbers where project beneficiaries 
        and other Afghan citizens can send information on project 
        performance. USAID will direct MSP monitors to conduct followup 
        visits to locations that unsolicited reporting identifies as 
        particularly problematic or beneficial.

    v. Crowdsourcing: MSP will assist USAID in defining the specific 
and discreet monitoring tasks that can be performed by members of the 
public and the most effective methods of soliciting and receiving this 
information. This could include feedback on specific aspects of project 
performance or a related indicator where it would be advantageous to 
receive feedback from a broader population and not just direct 
beneficiaries.
    For example, a subnational governance project training municipal 
employees on project planning and budgeting could be monitored by 
soliciting information on municipal service delivery from local 
citizens. Through radio, we can create a call-in service for the public 
to respond via SMS on the length of time it takes for the delivery of a 
particular service that USAID attempted to improve through its 
assistance. MSP will work with USAID to develop and implement an 
outreach campaign that drives the solicitation. This could include 
informing communities about programs being implemented by USAID and/or 
the municipal government in a given community and their expected 
outcomes. Information collected from crowd sourcing will be reported 
back to USAID and used to verify information reported through other 
monitoring tiers.

    Question #6A. Economic Impact of the Drawdown.--What specific 
programmatic steps is USAID taking to mitigate the impact of the loss 
of jobs in the Afghan economy due to the drawdown of the international 
presence at the end of 2014?

    Answer. Over the last 11 years the United States has helped 
Afghanistan achieve significant economic growth, which has averaged 
over 9 percent annually. However, the military drawdown poses a 
challenge to sustaining this growth. World Bank projections depend on 
differing sets of assumptions, but the more optimistic scenarios place 
future annual growth at 4 to 6 percent. The World Bank also expects an 
increase in unemployment, currently about 8 percent, but given the 
large informal economy, expects the greater impact to be felt on 
underemployment (low-paying, non-full-time jobs) which is at about 48 
percent, and may increase alongside underemployment.
    To mitigate the potential negative impact of the transition on 
Afghanistan's economy and help it move to more sustainable sources of 
growth, U.S. Government efforts have been focused on promoting the 
development of Afghanistan's most productive sectors: agriculture, 
small and medium enterprise (SME) development, trade, and mining, and 
reinforcing of the key policies needed for growth; e.g., the business 
enabling environment and human capacity. USAID is concentrating these 
efforts in Regional Economic Zones in and around major municipalities 
and economically productive corridors--the areas in Afghanistan that 
have the greatest potential for sustainable growth due to concentration 
of population, presence of economic infrastructure, and access to 
domestic and international markets.
    USAID will focus on the agriculture sector since it is highly 
relevant to poverty reduction and job creation. Agriculture generates 
more than 50 percent of employment and roughly 75 percent of Afghans 
earn their income from the agricultural sector. Furthermore, employment 
in agriculture is characterized by small family businesses, often 
producing merely for subsistence and seldom providing enough resources 
to sustain families throughout the year. Between 2013 and 2018, USAID 
will implement four new regional agriculture development programs that 
are designed to increase employment along a number of market-oriented 
supply chains that will focus on value-added processing, linking 
farmers and private sector actors to regional markets, and addressing 
constraints in the business enabling environment. The USAID agriculture 
portfolio also includes critical investments such as irrigation, 
extension services and the provision of agriculture financing for 
commercialization and expansion that are required for leveraging the 
potential of agriculture to create jobs and reduce poverty. USAID will 
continue to introduce low cost, productivity enhancing technologies 
that are likely to yield jobs, higher outputs, and require lower water 
amounts, delivering environmental benefits at the same time.
    Other economic development activities will also help mitigate the 
effects of the drawdown on the economy, and help create jobs. The 
Financial Access for Investing in the Development of Afghanistan 
(FAIDA) project assists the Government of Afghanistan and the private 
sector in developing the financial sector. FAIDA helps USAID's Afghan 
partners in building capacity to deliver finance where it can be used 
most effectively, and in developing a legal framework and market 
infrastructure in which financial sector institutions and their 
business partners can create employment opportunities for all Afghans. 
The Afghanistan Workforce Development Program (AWDP) helps address the 
twin problems of unemployment and the scarcity of technically skilled 
Afghan labor and trained business managers by improving quality and 
access to training in market-driven skills including construction, 
information and communications technology, mining, business management, 
and service industries to enable Afghans to fill jobs in these fields. 
By improving the quality and access to training in market-driven 
skills, AWDP complements the workforce development goals of the Afghan 
Government while providing trained employees to growing businesses.
    The Assistance in Building Afghanistan by Developing Enterprises 
(ABADE) program primarily works with the private sector to strengthen 
the productivity of enterprises so that these enterprises can have 
sustained growth and job creation. ABADE's objectives are to increase 
domestic and foreign investment, stimulate employment, and improve 
sales of Afghan products. ABADE's alliances with Small and Medium 
Enterprises (SMEs) will accelerate productivity and job creation by 
mitigating risk, and leveraging contributions from private companies 
via alliances.

    Question #6B. How many jobs do you anticipate will be created as a 
result of USAID's efforts?

    Answer. While many factors affect the creation of jobs, USAID is 
aiming to create approximately 34,000 jobs through the direct influence 
of USAID programs in the agriculture and economic growth sectors in 
2014. These estimates are subject to change depending on the fluid 
conditions during Afghanistan's transition period.
    By the end of the Regional Agriculture Development Program (RADP), 
USAID anticipates a 20-percent increase in full time employment in the 
targeted areas and value chains, which equates to approximately 10,000 
new jobs, including a 10-15-percent target increase in women's full 
time employment. The Financial Access for Investing in the Development 
of Afghanistan (FAIDA) project has hired 19 district and regional 
coordinators to assist in the creation of new private sector loans that 
are anticipated as being able to generate more than 2,100 new full-time 
equivalent jobs in 2014. The Assistance in Building Afghanistan by 
Developing Enterprises (ABADE) program estimates its public private 
alliances and technical assistance will help generate 12,000 new jobs 
in 2014.
        graphs submitted to supplement answer to question no. 5




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



                                  [all]

</pre></body></html>
